<html>
<title> - TRANSPARENCY THROUGH TECHNOLOGY: EVALUATING FEDERAL OPEN-GOVERNMENT EFFORTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
  TRANSPARENCY THROUGH TECHNOLOGY: EVALUATING FEDERAL OPEN-GOVERNMENT 
                                EFFORTS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                           PROCUREMENT REFORM

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2011

                               __________

                           Serial No. 112-17

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
67-567                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3651465976554345425e535a461855595b18">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                    Relations and Procurement Reform

                   JAMES LANKFORD, Oklahoma, Chairman
MIKE KELLY, Pennsylvania, Vice       GERALD E. CONNOLLY, Virginia, 
    Chairman                             Ranking Minority Member
JASON CHAFFETZ, Utah                 CHRISTOPHER S. MURPHY, Connecticut
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
PATRICK MEEHAN, Pennsylvania
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 11, 2011...................................     1
Statement of:
    Miller, Ellen, co-founder and executive director, Sunlight 
      Foundation; Danny A. Harris, Chief Information Officer, 
      Department of Education; Christopher L. Smith, Chief 
      Information Officer, Department of Agriculture, accompanied 
      by Jon M. Holladay, Acting Chief Financial Officer, U.S. 
      Department of Agriculture; and Jerry Brito, senior research 
      fellow, Mercatus Center at George Mason University.........    15
        Brito, Jerry.............................................    43
        Harris, Danny A..........................................    27
        Miller, Ellen............................................    15
        Smith, Christopher L.....................................    33
    Werfel, Daniel I., Controller, Office of Management and 
      Budget.....................................................    65
Letters, statements, etc., submitted for the record by:
    Brito, Jerry, senior research fellow, Mercatus Center at 
      George Mason University, prepared statement of.............    46
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............     8
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    12
    Harris, Danny A., Chief Information Officer, Department of 
      Education, prepared statement of...........................    30
    Lankford, Hon. James, a Representative in Congress from the 
      State of Oklahoma, prepared statement of...................     4
    Miller, Ellen, co-founder and executive director, Sunlight 
      Foundation, prepared statement of..........................    18
    Smith, Christopher L., Chief Information Officer, Department 
      of Agriculture, prepared statement of......................    35
    Werfel, Daniel I., Controller, Office of Management and 
      Budget, prepared statement of..............................    68


  TRANSPARENCY THROUGH TECHNOLOGY: EVALUATING FEDERAL OPEN-GOVERNMENT 
                                EFFORTS

                              ----------                              


                         FRIDAY, MARCH 11, 2011

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and Procurement Reform,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. James Lankford 
(chairman of the committee) presiding.
    Present: Representatives Lankford, Chaffetz, Walberg, 
Labrador, Meehan, Farenthold, Kelly, Connolly, Lynch, and 
Murphy.
    Also present: Representatives Issa and Cummings.
    Staff present: Ali Ahmed, deputy press secretary; Molly 
Boyl, parliamentarian; Benjamin Stroud Cole, policy advisor and 
investigative analyst; Gwen D. Luzansky, assistant clerk; 
Christopher Hixon, deputy chief counsel, oversight; Hudson T. 
Hollister, counsel; Ryan Little, manager of floor operations; 
Justin Lo Franco, press assistant; Mark D. Mann, senior 
professional staff member; Tegan Millspaw, research analyst; 
Laura I. Rush, deputy chief clerk; Peter Warren, policy 
director; Jill Crissman, minority professional staff member; 
Carla Hultberg, minority chief clerk; Adam Miles and Amy 
Miller, minority professional staff members; Donald Sherman, 
minority counsel; and Cecelia Thomas, minority counsel/deputy 
clerk.
    Mr. Lankford. The committee will come to order.
    This is a hearing on Transparency through Technology, 
Evaluating the Federal Open-Government Efforts.
    Let me read our mission statement for this committee, so it 
will be very clear why we are here. We exist as the Oversight 
and Government Reform Committee to secure two fundamental 
principles. First, Americans have a right to know that the 
money Washington Takes from them is well spent. Second, 
Americans deserve an efficient government that works for them. 
Our duty on the Oversight and Government Reform Committee is to 
protect these rights. Our solemn responsibility is to hold 
government accountable to taxpayers, because taxpayers have the 
right to know what they get from their government. We will work 
tirelessly and in partnership with citizen watchdogs to deliver 
the facts to the American people and bring genuine reform to 
Federal bureaucracy.
    This is the mission of the Oversight and Government Reform 
Committee.
    I will make a quick statement of what I think we are headed 
toward today on that. The focus of today's hearing is 
Transparency through Technology. The Oversight Committee has a 
strong history of promoting advancements in this area. During 
the 111th Congress, under the leadership of then-Chairman Towns 
and Ranking Member Issa, the committee worked on a bipartisan 
basis to pursue technology-driven transparency initiatives. I 
look forward to continuing that work and joining the 
administration in its efforts to fully implement its Open 
Government Directive and other transparency-related 
initiatives.
    President Obama, while in the Senate, joined Senator Coburn 
in shepherding the passage of the Federal Funding, 
Accountability and Transparency Act. This act required the 
administration to create a single, searchable Web site, 
accessible by the public at no cost, that will provide 
information on all transactions over $25,000. The result was 
USAspending.gov, first launched in December 2007. President 
Obama and Senator Coburn deserve great praise for having the 
foresight that the Federal Government use available 
technologies to meet the public's right to know how their tax 
dollars are being spent.
    Unfortunately, despite a number of expensive makeovers, 
USAspending.gov still fails to achieve the total goal at 3 
years after its launch because of some well-known data quality 
issues that we will discuss, I am sure, as we go through. Data 
from USAspending.gov comes from two sources, one that collects 
information from Federal agencies on contract expenditures and 
one that collects information from Federal agencies on grants, 
loans and other spending. GAO has reported that these two data 
sources are riddled with errors, largely due to human error and 
a lack of agency oversight over its data submissions.
    The administration's Data.gov initiative is similar to 
USAspending.gov. It is a commendable area and one that in 
principle, I agree with wholeheartedly. The Federal Government 
collects and generates an enormous amount of data that is 
largely invisible to the American citizen, but was paid for by 
the American citizen. This data is also invisible to the 
reporter or watchdog group that is trying to hold the 
Government accountable, or the entrepreneur who might be able 
to take that data and create new products, services or jobs in 
ways never contemplated by the Federal bureaucracy.
    Unfortunately, the implementation of Data.gov has not 
matched its promise. The administration required agencies to 
publish at least three high value data sets that had not 
previously been published. There was little guidance, however, 
as to what constituted a high value data set. As the Sunlight 
Foundation's director has said of this, ``The Government has 
some pretty interesting ideas about what they regard as high 
value data. The Department of the Interior seems to think that 
the population count of wild horses and burros is a high value, 
but records of safety violations is not. We want to see data 
that can be used to hold the Government and entities that 
report to it accountable.''
    Data about spending. Department missions and personnel are 
noticeably absent from Data.gov. If this data was public, it 
would save time and expenses as groups request basic reports 
and data from their government. This is highlighted by an 
article in Politico yesterday detailing how a watchdog group 
has been requesting long-term budget projections from OMB that 
were available in previous years, but they are now being 
withheld.
    In addition to data quality and data value, I hope to 
discuss with our witnesses today the issue of data standards 
and interoperability among Federal data systems. If a taxpayer 
wants to look at how much an agency plans to spend on a 
particular program, from and how much Congress ultimately 
appropriates, and then matches that figure with the information 
from USAspending.gov on organizations that receive from the 
program, and then compare that with the information on the 
impacts of the program from information published on Data.gov, 
he or she simply couldn't do it.
    These data systems lack the common data standards; they are 
not interoperable. Not only do they lack a common data 
standard, they sometimes violate even the most basic data 
standards in areas like separating the State field from the 
address field to allow for easy searches.
    I look forward to hearing from our witnesses today and hope 
that we can begin a fruitful discussion of what is working, 
what isn't, what are the next steps each of us should take to 
ensure the Federal Government is utilizing all the technology 
available to provide true transparency to the American public.
    I do want to take this moment to commend the work done by 
OMB for Recovery.gov, Data.gov and USAspending.gov. This is the 
first administration to make this kind of data available, and 
the first attempt will always have some errors. It is not our 
intent today to belittle the efforts of this administration, 
only to discover the important lessons learned and to hear the 
steps that are being taken to move things forward.
    I will now defer to the ranking member for his opening 
statement.
    [The prepared statement of Hon. James Lankford follows:]

    [GRAPHIC] [TIFF OMITTED] T7567.001
    
    [GRAPHIC] [TIFF OMITTED] T7567.002
    
    Mr. Connolly. Thank you, Chairman Lankford. I want to 
applaud you for your decision to hold this hearing and for the 
tone you have set in your opening statement about the subject 
matter and the administration.
    Too often oversight focuses only on failures when our role 
should be to rectify failures while publicizing and encouraging 
the dissemination of best practices. In the case of Federal 
transparency and technology, consider where we were four short 
years ago. There was no centralized site for citizens to read 
about Federal spending, projects in the congressional district, 
or summaries of investments for major bills like the Recovery 
Act.
    Today, citizens can access comprehensive Federal spending 
information at USAspending.gov. As a result of House rules 
adopted under the previous Congress, all earmarked requests 
have also been posted on each Member's Web site for each of the 
last 2 years. Finally, thanks to Recovery.gov, all Recovery Act 
investments have been readily accessible to anyone with an 
internet access.
    These reforms have been a collaborative effort. Then-
Senator Obama and Senator Coburn wrote legislation to 
consolidate information on Federal spending, the result of 
which was USAspending.gov. The House adopted rules to require 
public disclosure of earmarks to be posted online. President 
Obama undertook an unprecedented effort to make public his 
administration's implementation of the Recovery Act as well as 
information technology and other investments.
    Finally, non-governmental organizations have monitored the 
accuracy of those reporting instruments and their efforts have 
identified the suggested ways to improve the reliability of the 
reported data. As we continue to expand these transparency 
initiatives, I believe we should demand that we are receiving 
the greatest possible utility for these programs. Resources 
dedicated to reporting should lead to greater public 
understanding and promote accountability.
    As the Government works toward achieving transparency 
goals, we need to consider any impact that greater reporting 
costs may have on the infrastructure and educational 
investments this country needs. During this period of budget 
uncertainty, these potential tradeoffs are real considerations 
that I hope all of our witnesses today will also address.
    Another question is how we report and consider the benefits 
of Federal spending programs. It is important for our 
constituents to understand what they are getting from a Federal 
investment as it is to understand how much money is being 
spent. Because not all spending is the same. Not all spending 
has the same impact on the quality of life or on the economy.
    In addition, as we consider the results of different 
expenditures, it is important to treat all Federal expenditures 
equally, that is, including those buried in the tax code. Tax 
expenditures account for over $1 trillion in foregone revenue 
annually. While tax expenditures differ from other spending in 
form, in reality these are simply spending and policy programs 
administered by the IRS.
    Of course, many tax expenditures have a valid purpose, but 
as a whole, they do not receive the same scrutiny as direct 
expenditures, even though they have the same impact on the 
Federal budget. They are not listed on USAspending.gov, and 
they are not subject to the accountability mechanisms that 
apply to other forms of spending.
    The Fiscal Commission recommended that Congress carefully 
consider the impact of tax expenditures on the budget. I 
believe that this committee should look into those 
opportunities to make sure these IRS-administered spending 
programs are working for all Americans and not just those 
receiving the tax break.
    I look forward to working with members of the subcommittee 
and with you, Mr. Chairman, to ensure that we are working 
toward this comprehensive presentation of Federal expenditures 
and their impacts. I yield back.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC] [TIFF OMITTED] T7567.003

    Mr. Lankford. Thank you.
    I would like to recognize, as many of you know, this is a 
subcommittee of Oversight and Government Reform, we do have the 
chairman for the committee as a whole here, and I would like to 
recognize Chairman Issa for an opening statement.
    Chairman Issa. I thank you, Chairman, and I would also 
recognize that the full committee ranking member is here.
    This is the most important issue of this committee in the 
long run. We are a committee that on a day to day basis 
obviously deals with the events, the failures in Government, 
and the need for reform, short term. Today, like every other 
hearing that is about oversight, transparency and getting it 
right, particularly in data reporting, we are dealing with what 
is ultimately going to be the fix.
    I came from the private sector, where the idea that there 
would be data entry errors, and that those data entry errors 
would be different than the actual payments, was unheard of. If 
someone is typing in something for a report, rather than taking 
the actual data as it went out on a purchase order, an invoice, 
or some other disbursement, then by definition, you are not 
giving people the honest results of what Government did. You 
are giving them somebody's interpretation of the honest result.
    If they are completely accurate, then all you have wasted 
is a huge amount of human capital. If they are inaccurate, then 
you have data which is worthless.
    Today, I am very proud that I have a panel of four here, 
both Government and very responsible people within the watchdog 
community, to talk about transparency, to talk about reporting, 
and to continue with our process of getting it right in the 
future. I regret we have a second panel. We have a second panel 
for an inexplicable reason that OMB has told us that they will 
not sit with non-government entities, that they have a 
longstanding policy.
    I have been here only going on 11 years. But it is not that 
long a policy. I would hope that in the future, we can have the 
responsible people who are in the data use business and the 
data transparency business as often as possible, when 
appropriate and vetted, with the Government people who are 
charged with working to do that.
    Today's hearing is not the first, and it won't be the last 
in this process. Until every dollar from the time it leaves the 
taxpayer's account or for that matter, the dollar deposited 
when you want to go into a Federal park, until the last dollar 
is spent or disbursed, either used to pay a Federal employee or 
disbursed through the system in the private sector, until that 
is accounted from womb to tomb, we will not have done our job.
    When we get to that point, then the job that we all want 
done, which is full accountability with virtually no loss, 
theft or waste, will be possible. Today it is not possible. 
This hearing is important because the failure to get the data 
right is the reason that ultimately we are not getting the 
responsible government. And day after day, we are told $100 
billion, $200 billion, $300 billion would be saved if we simply 
stopped disbursements to people or to entities which do not 
deserve them.
    So until we get there, this committee will have no more 
important issue than the one we are here today. This is a 
subcommittee hearing, but you have both of the chairs and 
ranking members for the reason that the work you are doing is 
the most important work of the Congress.
    Thank you, and I yield back.
    Mr. Lankford. Thank you, Mr. Chairman.
    I would also like to recognize the ranking member of the 
entire committee as well, Mr. Cummings. Glad that you are here. 
We would be open to receive your opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. To 
Chairman Lankford and Ranking Member Connolly, certainly to 
Chairman Issa, and all the members and the panel. It is 
certainly a pleasure to have all the witnesses here.
    I was just listening to all of what has been said. It is 
true that you play a very important role. Right now, we are in 
a big struggle here in the Congress. Just this morning I had to 
explain to some Morgan State University students why it is that 
many of them may not be able to go to school next year, because 
the Pell grants are being slashed.
    It is painful, because many of those students will never 
return to school. They will never go back. I sit on the board 
of that school and have been there for the last 12 years. And 
we were losing students even with the Pell grants as they are. 
But when they get slashed, it gets worse.
    Then I thought about, as I was just sitting here, I thought 
about a town hall meeting I had on Saturday, where people came 
up to me and said, we have 250 kids in Head Start. But we have 
750 on the waiting list.
    And so what does that have to do with all of this? It is 
about accountability.
    I agree with Chairman Issa that we need to account for 
every single dime. If money is not being accounted for, there 
is a major problem. And that is a sad situation, particularly 
in a country where we can send folks to the moon, but we can't 
keep up with where the money is going. That is a major problem.
    So I am grateful for this opportunity to examine the 
administration's ongoing efforts to bring increased 
transparency to the Federal Government. I want to thank 
Chairman Lankford for giving this President some credit for 
something for a change. This is an issue of critical 
importance, and the Federal Government must be held strictly 
accountable for its expenditures of taxpayers' hard-earned 
dollars.
    On April 15th, there will be people figuring out, trying to 
figure out how they are going to pay the taxes. There are folks 
who, at the end of a week or 2-week period, look at their pay 
stubs and scratch their heads. They are barely making it now, 
if they have a paycheck. So we owe it to them to get it right.
    The passage of the Federal Funding, Accountability and 
Transparency Act of 2006 and the establishment of 
USAspending.gov, as required by the act, have given the average 
American unprecedented ability to track Federal contracts and 
grants. This transparency increases the public's ability to 
hold elected representatives and Federal Government accountable 
for distribution in the use of Federal funds.
    Further, the act and the Government's experience with 
USAspending.gov paved the way for creation of additional Web 
sites that allow the public to track specific types of 
spending, including Recovery.gov and Data.gov.
    The administration's ongoing efforts to improve the quality 
and breadth of data being reported are to be commended. In 
particular, I am pleased that in October 2010, the 
administration began publishing sub-awards on USAspending.gov 
for the first time. However, the Sunlight Foundation's 
September 2010 report shows that there is an opportunity to 
continue improving transparency and make additional information 
publicly available. In other words, we could always do better.
    During the last Congress, I supported legislation that 
moved through this committee to enhance the usability and 
interoperability of Federal financial data. I look forward to 
working together in a bipartisan manner to advance such 
legislation in the Congress.
    OMB must also work to ensure that USAspending.gov 
implements mechanisms to improve the timeliness and accuracy of 
its reporting to the public. However, we should also be mindful 
that pursuit of perfection in the reporting of spending data 
imposes real financial costs, both in dollars and manpower. And 
such costs must be weighed against the benefits they will 
yield.
    I look forward to the witnesses' views on the issues today.
    And finally, let me say this. Any accounting of costs of 
Government spending is inherently incomplete unless it also 
includes data detailing the revenue loss to the Government 
through tax breaks and incentives to the wealthiest individuals 
and businesses, including businesses that move jobs overseas, 
as children will be thrown out of Head Start, or never get a 
head start, and as young people are thrown out of colleges.
    I look forward to the testimony of our witnesses and to 
working with Chairman Lankford, and certainly Chairman Issa and 
Ranking Member Connolly, to identify and address areas where 
the Federal transparency efforts can continue to be improved.
    With that, Mr. Chairman, I thank you and I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T7567.004

[GRAPHIC] [TIFF OMITTED] T7567.005

    Mr. Lankford. Thank you.
    All the Members will have 7 days to submit opening 
statements and other materials for the record.
    I would like to now welcome and introduce the members of 
the panel. Then I will lay some basic ground rules and we will 
receive your testimony from there.
    Ms. Ellen Miller is the Co-Founder and Executive Director 
of the Sunlight Foundation. She is the founder of two other 
prominent Washington-based organizations in the field of money 
and politics, the Center for Responsive Politics and Public 
Campaign, and a nationally recognized expert on transparency 
and the influence of money in politics. Thank you for being 
here.
    Mr. Chris Smith is the Chief Information Officer for the 
Department of Education. Mr. Smith previously served as the 
Chief Information Officer for Rural Development and the U.S. 
Department of Education and as the Information Technology 
Director for Financial Information at the General Services 
Administration. Thank you.
    Switching people back there, Mr. Harris is the Chief 
Information for the Department of Agriculture--did I get those 
two reversed? I did, actually. I got those two reversed. I 
apologize for that. So take all the Education stuff and apply 
it to Mr. Harris, and let me switch to Mr. Smith.
    Mr. Smith is the Chief Information Officer for the 
Department of Agriculture. Mr. Smith previously served as the 
Deputy Chief Financial Officer for the Department. I understand 
that Mr. Jon Holladay, the CFO for the Department of 
Agriculture, will also be advising Mr. Smith. So when everyone 
stands to be sworn in, if you would also stand and be sworn in 
as well.
    Mr. Jerry Brito is a Senior Research Fellow at the Mercatus 
Center at George Mason University. He is the author of several 
published scholarly articles, and a contributor to the 
Technology Liberation Front, a leading tech policy blog. He is 
also the creator of Unclutter, a popular blog about personal 
organization and simple living that is read by a quarter 
million people each month. That is a nice reading list.
    Let me give you the ground rules for our hearing itself 
here. Each of you has been asked to submit a written statement 
for the record. We have also asked you to prepare an oral 
statement no longer than 5 minutes. We will allow time for 
questioning on your statement after that.
    You will see on your desk a series of lights and a clock 
which will count down from 5 minutes. The lights will change 
from green to yellow to red when your time is expired, and it 
will be time at that point to quickly wrap up.
    After all the panel has given their oral statements, each 
Member present will have 5 minute to ask questions of the 
panel. Many Members may have several questions, so it is very 
important that you answer your questions very concisely. Do not 
feel you have to give a lengthy answer on anything.
    Please also forgive the members of this committee as we 
excuse ourselves. Most of us have multiple committee 
assignments going on this morning. We are juggling concurrent 
meetings. Mr. Connolly had to slip out and head to the floor of 
the House as we have things going on there right now. Your 
testimony will be recorded and it will be available for review 
by all of us. I can assure you, it is written down, every bit 
of it, and we will be able to review it in days to come. So 
thank you.
    Each Member completely chooses the content of their 5 
minutes of questioning. I would ask the Members to honor our 
guests' time and attendance by prioritizing answers and 
information from them, instead of making speeches. I would also 
ask all of our Members not to ask a question past their 5-
minute time. Once it is expired, as the chairman, I reserve the 
right to remind everyone that time is expired and ask for 
proper decorum in our hearings.
    We will have two panels this morning. The first will 
include Ms. Miller, Mr. Smith, Mr. Harris and Mr. Brito. The 
second one will have only Mr. Werfel. It is my understanding 
that the Office of Management and Budget did not want to sit on 
a panel with non-government witnesses, so we have honored their 
request for Mr. Werfel to be separated from the other 
witnesses. We will hear the testimony of the first panel, and 
when we conclude that testimony and our questions, we will 
immediately move to questions and testimony from Mr. Werfel 
individually.
    We are very grateful for all the time you have committed in 
preparing your written and your oral statements, and the time 
you have been away from your family for this hearing. Do you 
understand all the ground rules of this hearing?
    [Witnesses respond in the affirmative.]
    Mr. Lankford. Thank you.
    It is the policy of the committee that all witnesses be 
sworn in before they testify. For all of you that are going to 
be doing any testimony, would you please rise. Please raise 
your right hands.
    [Witnesses sworn.]
    Mr. Lankford. Thank you. Please be seated.
    I would like to recognize Ms. Miller for 5 minutes. Thank 
you.

STATEMENTS OF ELLEN MILLER, CO-FOUNDER AND EXECUTIVE DIRECTOR, 
    SUNLIGHT FOUNDATION; DANNY A. HARRIS, CHIEF INFORMATION 
 OFFICER, DEPARTMENT OF EDUCATION; CHRISTOPHER L. SMITH, CHIEF 
INFORMATION OFFICER, DEPARTMENT OF AGRICULTURE, ACCOMPANIED BY 
     JON M. HOLLADAY, ACTING CHIEF FINANCIAL OFFICER, U.S. 
  DEPARTMENT OF AGRICULTURE; AND JERRY BRITO, SENIOR RESEARCH 
       FELLOW, MERCATUS CENTER AT GEORGE MASON UNIVERSITY

                   STATEMENT OF ELLEN MILLER

    Ms. Miller. Thank you, Chairman Lankford, Ranking Member 
Connolly, and Mr. Cummings and members of the committee. Thank 
you for the invitation to appear before you today.
    My name is Ellen Miller, and I am co-founder and executive 
director of the Sunlight Foundation, a non-partisan, non-profit 
dedicated to using the power of the internet to catalyze 
greater government openness and transparency. We take our 
inspiration from Justice Brandeis' famous adage, ``Sunlight is 
said to be the best of disinfectants.''
    The public has a right to know how its government works. 
Recent Congresses deserve congratulations for taking concrete 
steps toward embracing a 21st century vision of transparency. 
Initiatives from this administration, like the Open Government 
directive, are emblematic of the willingness to take 
transparency seriously.
    Unfortunately, the Open Government directive's value has 
proven to be largely aspirational. While establishing positive 
transparency norms is hugely important, we believe that 
government must now focus on the harder challenges. It is no 
longer enough to acknowledge transparency's importance; 
transparency initiatives must be accurate, complete and useful 
as well as timely.
    There is perhaps no better example of the tension between 
show and tell than USAspending.gov. Disclosure of the ways in 
which the public's money is spent is among the most important 
types of government transparency. Congress recognized this in 
2006, with the passage of the Federal Funding, Accountability 
and Transparency Act, which required that information about 
Federal grants, contracts, loans and insurance be placed online 
in a searchable Web site known as USAspending.gov.
    In the course of their work, Sunlight researchers have 
become deeply familiar with the data powering USAspending.gov. 
As we began to examine these systems, we were aware that the 
quality of the data sets was widely considered problematic. Our 
work quickly confirmed that data suffered from irregularities. 
However, we were anxious to reach an even more complete 
understanding of the problem, so we dug in.
    In order to do so, we needed a reference point against 
which we could compare the USAspending.gov data. Unfortunately, 
the complexities of the Federal budget make both the budget and 
Treasury expenditure data unsuitable for that use. We found our 
yardstick in the Catalog of Federal Domestic Assistance, an 
index of many Federal programs, including program descriptions 
and yearly obligation amounts. Although not strictly designed 
for this use, CFDA has been used for comparative analysis by 
GAO in the past.
    We took their methodology and expanded it. Like GAO, we 
looked for mismatches in amounts between CFDA and 
USAspending.gov data, allowing a generous margin of error to 
account for differences in the systems. We also looked for 
instances in which reports had been made within statutory 
deadlines, and for incomplete reports. Finally, we automated 
GAO's sample-based methodology, so that we could examine the 
entire data base which consists of hundreds of thousands of 
records.
    The results were sobering. We found over $1.2 trillion of 
mis-reported spending in 2009 alone. Some of the most serious 
problems appeared to be caused by the agency's failure to meet 
their reporting obligations. The USDA Web site lists the cost 
of their school breakfast program and lunch programs at $12.7 
billion. But only $250,000 of these costs are reported on 
USAspending.gov.
    The Maritime Administration has never reported spending 
associated with any of its loan or insurance programs and 
reports only a fraction of its grant activity. These are just 
two examples. Almost every agency has one or more programs that 
failed to report their spending.
    And the spending that is reported is often incomplete or 
incorrect. For example, each loan record is required to include 
both a subsidy cost and the face value of the loan. 
Unfortunately, the subsidy cost is incorrectly reported as zero 
for over 85 percent of the loan records. And the face value of 
all fiscal year 2010 student loans was reported as $6.9 
trillion, an amount greater than the entire Federal budget. 
Clearly, that number is wrong.
    We do not believe that these problems are the fault of the 
USAspending.gov Web site or the people that maintain it. 
Indeed, USAspending.gov deserves praise for its growth and 
improvement. When we conducted this analysis, we had to send a 
hard drive out to Maryland to get the data. Today, we can 
download it directly from the Web site.
    Similarly, we are pleased to see the administration finally 
begin to offer the sub-award data maintained by FFATA. But 
these improvements will be meaningless for the vast majority of 
users if the underlying data is not reliable. Agencies 
typically use purpose-built internal systems for managing their 
spending that are separate from the public reporting systems 
and much more accurate. In essence, they maintain two sets of 
books, one of which is habitually neglected.
    But this latter system is vitally important for both the 
public and Government planning efforts. And until the agencies 
begin to take these responsibilities more seriously, Federal 
spending transparency will remain an unfulfilled promise.
    We welcome the committee's attention to this issue and 
encourage you to continue to spend time in engaging oversight 
and legislative efforts on this important topic. Thank you for 
the opportunity to testify today. My colleagues and I, Tom Lee 
and Kaitlin Lee, look forward to your questions. Thank you.
    [The prepared statement of Ms. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7567.006
    
    [GRAPHIC] [TIFF OMITTED] T7567.007
    
    [GRAPHIC] [TIFF OMITTED] T7567.008
    
    [GRAPHIC] [TIFF OMITTED] T7567.009
    
    [GRAPHIC] [TIFF OMITTED] T7567.010
    
    [GRAPHIC] [TIFF OMITTED] T7567.011
    
    [GRAPHIC] [TIFF OMITTED] T7567.012
    
    [GRAPHIC] [TIFF OMITTED] T7567.013
    
    [GRAPHIC] [TIFF OMITTED] T7567.014
    
    Mr. Lankford. Thank you.
    Dr. Harris, I am going to appropriately recognize you at 
this point. Thank you for being here. We will receive your 
testimony.

                  STATEMENT OF DANNY A. HARRIS

    Mr. Harris. Thank you, and good morning, Chairman Lankford 
and members of the subcommittee.
    Thank you for the opportunity to appear before the 
subcommittee today. My name is Danny Harris and I am the Chief 
Information Officer at the U.S. Department of Education, a 
position I have had the privilege to hold since October 2008. I 
am very pleased to discuss the Department's transparency 
efforts specific to the Open Government initiative.
    On his first day in office, the President sent a memo 
directing all Federal agencies to create unprecedented levels 
of openness in Government. The Department of Education has 
taken this directive very seriously. Our Open Government plan 
makes our efforts more transparent, participatory and 
collaborative. I am personally committed to these goals, and 
the Department looks forward to building upon the solid 
foundation put in place during the first 2 years of this 
initiative.
    For decades, the Department has collected, analyzed and 
used data to inform our delivery of services. At the Department 
of Education, we collect data about the overall condition and 
effectiveness of education provided by the States, local 
educational agencies and institutions of higher education. A 
key part of our mission is to provide useful information to 
States, assisting their efforts to allocate resources to 
education citizens in the most effective and efficient way.
    Equally important to our mission is supporting the use of 
Federal resources toward ensuring fair access to education for 
all. Open Government efforts place special emphasis on 
providing information to the public leading to increased 
transparency and to the information we and States use for 
decisionmaking.
    At the Department of Education, we have established a 
cross-functional team to develop our Open Government plan, 
which is available on our Web site. Also, we have established a 
governing body to oversee departmental execution of the Open 
Government plan and to improve the efficiency and effectiveness 
of all of the information collection and dissemination 
activities at the Department.
    Decisions and recommendations from this board will and do 
affect IT spending. This coordinated effort will effectively 
manage duplicative data requests, it will reduce burdens to the 
States and local agencies, and it will optimize Department-wide 
data aggregation. At the end of the day, it is not just about 
the data that we deliver, it is about delivering tools to drive 
innovation.
    Prior to implementing Open Government efforts, we provided 
similar information and tool sets, allowing citizens to view 
the information in ways that we thought were useful. Open 
Government altered this framework, and now we deliver the same 
information in a raw, machine-readable format, allowing 
citizens to analyze the data and transform those data into 
useful, aggregated information. This access to data has 
undoubtedly created new insights and views, enabling previously 
unthought of ways for citizens to understand, view and track 
Federal dollars.
    The clear benefit is that citizens can now view the 
delivery of services with comprehensive information and the 
public's ability to access and analyze these data make Federal 
spending transparent. In turn, this helps ensure departments 
are accountable for results and outcomes.
    The challenge for the Department is to ensure the quality 
of this data. We view key attributes of quality as timeliness, 
accuracy and most of all, privacy. The challenge for our 
stakeholders is to establish proper awareness and context for 
these data. We have already seen positive outcomes as a result 
of these initiatives. For example, in our Race to the Top 
program, we provided a detailed description of the process used 
to review and select the winners of that program. The 
Department, in implementing Race to the Top, has demonstrated 
unprecedented transparency by posting all of the applications 
as well as peer reviewer scores and comments to the public for 
review.
    To help spur innovation, our Investing in Innovation team 
created an open innovation portal, a Web site where education 
innovators can share ideas and collaboration, where funders and 
educators can point out their needs, and where people can 
gather to propose, develop, fund, implement and more than 
anything else, improve solutions inside and outside of the 
classroom.
    We take the commitment to transparency seriously at all 
levels within the Department. For example, in 2009, Secretary 
Duncan launched his Listening and Learning Tour. He did this to 
engage the public directly in discussing education reform in 
America. The Department used the input we received to prepare a 
blueprint for reauthoring the Elementary and Secondary 
Education Act.
    Transparency through technology provides an opportunity to 
engage with the public in making the Department of Education 
more accountable. Specifically, the Department has a 
significant role in complying with the Federal Funding and 
Accountability Transparency Act, due to the very large number 
of grants, contracts and loans that we administer. These funds 
go to numerous recipients and sub-recipients in States and 
territories, and the public should know where these funds are 
going, for what purpose, and most importantly, what results 
they should expect. We submit grant and loan funding 
transactions on a bi-weekly basis from our grant system in the 
Federal assistance award data system file layout.
    Additionally, we provide our contract funding transactions 
to the Federal procurement data system in real time during our 
contract award. Both our grants and contract systems are 
integrated with the Department's general ledger. This ensures 
that the transactions that we submit to USAspending.gov are 
directly traceable to our financial systems.
    Finally, the Privacy Act and Federal guidelines govern how 
we protect personally identifiable information while at the 
same time complying with the Transparency Act and other public 
reporting requirements.
    In conclusion, I believe that Open Government, 
USAspending.gov, Federal reporting and other recovery Web sites 
all work together to put more and better information in the 
hands of the public. The benefits are tremendous, because these 
efforts lead to increased accountability, transparency, and 
more than anything else, recognizable links between spending 
and results.
    Thank you, chairman and members of the subcommittee, for 
your attention to this important issue. I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Harris follows:]

    [GRAPHIC] [TIFF OMITTED] T7567.015
    
    [GRAPHIC] [TIFF OMITTED] T7567.016
    
    [GRAPHIC] [TIFF OMITTED] T7567.017
    
    Mr. Lankford. Thank you, Dr. Harris.
    Mr. Smith.

               STATEMENT OF CHRISTOPHER L. SMITH

    Mr. Smith. Thank you, Chairman Lankford, Ranking Member 
Connolly, members of the subcommittee, Chairman Issa, who was 
with us here earlier. Thank you for this opportunity to share 
with you our progress on the implementation of the Open 
Government initiatives, transparency and accountability in the 
use of information technology to further these important goals.
    I am joined today by my colleague, Jon Holladay, who is the 
USDA Acting Chief Financial Officer, just behind me.
    USDA programs touch every American and many others around 
the world every day. We are focused on the activities that 
ensure an economically thriving rural America, that we are 
conserving our national forests and private working lands, and 
promoting sustainable agricultural production and biotechnology 
exports to ensure and increase food security and to provide 
access to a nutritious diet for all Americans.
    Full and easy access to information on Government spending 
promotes accountability by allowing detailed tracking and 
analysis of deployment of these resources. Tracking and 
analysis allows the public and public officials to gauge the 
effectiveness of expenditures and to monitor spending patterns 
to achieve the best possible results. Transparency also gives 
the public confidence that we are properly managing its funds.
    From the Transparency Act of 2006 to the Open Gov directive 
of 2009, Government transparency has become the cornerstone for 
information access to facilitate participation and 
collaboration across Federal, State and local governments and 
with the public. USDA is a strong advocate of Government 
transparency and is striving to meet both the letter and intent 
of the Open Government Directive.
    On December 8, 2009, the White House issued the Open 
Government directive, requiring Federal agencies to take 
specific action to promote transparency, collaboration and 
participation. The Open Government directive puts 
accountability and accessibility at the center of how Federal 
Government operates. It instructs agencies to share information 
with the public through online, open and accessible, and as my 
colleague has stated, machine readable formats.
    USDA fully supports the administration's directive for open 
government and is actively engaged on this front in making the 
Department more accessible and accountable to our citizens. To 
foster accessibility, USDA launched its OpenGov Web site in 
spring of 2010 and published an open government plan describing 
how USDA would improve transparency and integrate public 
participation and collaboration into its activities.
    With the launch of our Web site, citizens are able to learn 
about and comment on USDA information and post their ideas on 
transparency and collaboration, and actively participate with 
the Department. The public can also post ideas to help USDA 
become more efficient and more effective in everything that we 
do.
    Additionally, to improve outreach initiatives, USDA has 
established an open government communication plan, which 
describes USDA's interaction and collaboration and details the 
activities that we are taking.
    USDA is leveraging information technology to improve 
transparency and increase citizen interaction and 
participation. Two good examples are USDA's My Pyramid and Apps 
for Healthy Kids, which are innovative approaches to USDA 
reaching out and encouraging collaboration with the private 
sector and the public.
    The Applications for Healthy Kids competition was a 
collaborative project to challenge the general public to design 
online mobile gaming tools and educational applications to 
educate people about the importance of healthy eating and 
physical activity. USDA's Food and Nutrition Service, 
Department of Health and Human Services, First Lady Michelle 
Obama's Let's Move initiative and the NFL's Fuel Up To Play 60 
played a vital role in this challenge. Over 45,000 participants 
submitted 95 games and applications, with 12 submissions 
selected as the ultimate winners.
    Additionally, as a part of the USDA Open Government 
flagship initiatives, the Forest Service directly improved 
transparency, collaboration and participation by increasing 
public participation in the development of its land management 
planning rule by leveraging information technology to improve 
collaboration and interaction. Using Web 2.0 technologies and 
online collaborative environments, the agency provided the 
public with updates on the planning rule process and enabled 
them to submit comments.
    The agency also held public meetings and listening sessions 
all over the country to gain input from these citizens. More 
than 700 individuals were not able to attend these in person. 
Using collaborative technologies, they were able to participate 
remotely.
    The development of this proposed rule involved more than 
26,000 comments on the notice of intent and more than 40 public 
meetings with over 3,000 participants, including the National 
Science Forum, tribal consultation and Forest Service employees 
submitting comments. This increased focus on accountability and 
transparency built upon our commitment to strong financial 
stewardship as evidenced by USDA compliance with the 
Transparency Act.
    In September 2006, the Transparency Act was enacted. As 
required by the act, the Office of Management and Budget 
established the USAspending.gov Web site to provide 
transparency of Federal spending by disclosing entities 
receiving the funds. USDA sends bi-weekly transmissions to the 
Federal Financial Assistance system, reporting any award over 
$25,000. We report the key data elements regarding Federal 
award within 30 days after that award. And USDA data being 
reported to the public includes grants, cooperative agreements, 
direct and guaranteed loans, direct payments, insurance and 
contracts.
    USDA has a comprehensive information technology 
modernization strategy that encompasses the improvement of this 
data collection and the sharing of that with our citizens. I 
look forward to your questions and discussion, sir.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T7567.018
    
    [GRAPHIC] [TIFF OMITTED] T7567.019
    
    [GRAPHIC] [TIFF OMITTED] T7567.020
    
    [GRAPHIC] [TIFF OMITTED] T7567.021
    
    [GRAPHIC] [TIFF OMITTED] T7567.022
    
    [GRAPHIC] [TIFF OMITTED] T7567.023
    
    [GRAPHIC] [TIFF OMITTED] T7567.024
    
    [GRAPHIC] [TIFF OMITTED] T7567.025
    
    Mr. Lankford. Thank you. You could not have been closer on 
time as well. Thank you, Mr. Smith.
    Mr. Brito, pleased to get your oral testimony in 5 minutes.

                    STATEMENT OF JERRY BRITO

    Mr. Brito. Thank you, Mr. Chairman, members of the 
committee.
    Thank you for inviting me to testify on transparency 
through technology.
    As someone who believes that Internet-enabled transparency 
can lead to better and more accountable government, I am 
gratified by Government's efforts in this base for the past 5 
years. Transparency is an issue that has been genuinely 
embraced by both sides of the political aisle. What was once an 
esoteric concept, that meaningful transparency requires 
disclosures to be online and open, searchable in machine 
readable format has become a generally accepted ideal. Those 
are great strides.
    However, despite the Obama administration's technological 
efforts and congressional legislation like the Federal Funding 
Accountability and Transparency Act, whether government is 
performing effectively is still not completely transparent. 
That is because the vast majority of newly available data is 
not about government, and disclosures that are about government 
tend to report its activities, not data on program outcomes. 
When program outcomes are reported, they tend to be suspect 
because they are self-measured and self-reported by program 
managers.
    On Data.gov, the government has compiled wonderful, never 
before available data sets about regulated industries but 
little about its own performance. Excluding the 305,000 
datasets that pertain to geodata, the Data.gov data catalog 
makes available just over 3,000 ``raw'' datasets. Of these, 
about half are related to the Toxic Release Inventory compiled 
by the EPA. These are disclosures about regulated entities 
that, while very valuable to individuals and researchers, tell 
us little about the performance of government.
    A quick scan of the remaining 1,500 datasets reveals that 
only 200 to 300 report on the activities or performance of 
government. There is plenty of smoke, but little fire.
    One of the better datasets available is Research.gov. This 
National Science Foundation data base of federally funded 
science and engineering research allows users to search for 
grants by keyword, location, or grantee; see which grants were 
awarded and for how much; and learn about the results of each 
specific, federally funded research project. This information 
is useful in holding Government accountable for its 
performance.
    Less useful, although no doubt valuable to some 
researchers, are datasets like one from the U.S. Geological 
Survey on the effects of fire on Rocky Mountain Olive-Side Fly 
Catcher Bird nests. Spending-transparency sites like 
USAspending.org and the Recovery.gov site are also useful 
because they disclose government's actions. They allow 
citizens, watchdogs, bloggers and reporters access to the raw 
data of the business of government. It allows them to make 
creative uses of the data, including making interesting mashups 
and allowing them to crowd-source accountability.
    However, these types of sites are not perfect. As the 
Sunlight Foundation and others have pointed out, the quality of 
the data available can be sorely lacking. Also, until recently, 
only information about the primary recipient of a contract or 
grant award was available on USASpending.org, thus limiting the 
usefulness of the site.
    More broadly, while spending sites can help uncover 
instances of fraud, waste, and abuse, which is very important, 
they are less helpful in measuring performance because they 
simply disclose outputs, amounts of money disbursed to 
recipients and simple descriptions of contracts or grants. To 
determine whether a program is performing as intended the 
public needs information not only about outputs, but also about 
outcomes.
    With a Federal spending crisis on our hands, Congress must 
soon decide which programs to cut and which to keep. Voters 
will have to decide if they support Congress' choices. The 
whole process would be much easier if information existed about 
the relative performance of Government programs.
    In the private sector, a corporation must disclose its 
earnings as well as its expenditures and assets on a quarterly 
basis. Such an objective measure of performance not only allows 
the market to set a stock price, but it also allows 
shareholders to hold management accountable.
    Now, think of Government transparency. All agencies and 
programs disclose their expenditures in an annual budget and 
through sites like USAspending.gov. What Government does not 
report are earnings figures, for the simple reason that there 
are none. Therefore, a Government program may be transparent, 
and yet the public sees only half of the balance sheet.
    Congress tried to solve this problem with the Government 
Performance and Results Act. The problem with GPRA performance 
reporting, however, is that the very managers of the programs 
are charged with developing performance measures, measuring 
their own programs and writing self-evaluating performance 
reports. Even in the NSF's Research.gov site, which I 
mentioned, it is the award recipients who write the performance 
reports.
    In the private sector, Congress has recognized that this 
doesn't work. Congress has required that publicly traded 
companies must hire independent third party auditors to help 
prepare and certify reports. Under the Sarbanes-Oxley Act, 
corporate managers are personally liable for the veracity of 
those reports. Congress might want to consider similar, 
independent audits of agency performance reporting.
    I am looking forward to the launch of the new 
Performance.gov initiative by OMB, which promises to provide 
data-driven reviews of progress toward clearly defined goals at 
Federal agencies. Those reviews, however, won't be very 
meaningful if they are self-reported or based on shaky data.
    The progress Congress and the Obama administration have 
made in making transparency, and especially online 
transparency, a key objective for Government cannot be 
overstated. The culture of secrecy that has long pervaded 
Federal agencies is beginning to change. However, we must make 
sure that Open Government is first and foremost about 
transparency. And that transparency is clearly understood as 
disclosure of Government performance in the service of greater 
accountability.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Brito follows:]

    [GRAPHIC] [TIFF OMITTED] T7567.026
    
    [GRAPHIC] [TIFF OMITTED] T7567.027
    
    [GRAPHIC] [TIFF OMITTED] T7567.028
    
    [GRAPHIC] [TIFF OMITTED] T7567.029
    
    [GRAPHIC] [TIFF OMITTED] T7567.030
    
    [GRAPHIC] [TIFF OMITTED] T7567.031
    
    [GRAPHIC] [TIFF OMITTED] T7567.032
    
    [GRAPHIC] [TIFF OMITTED] T7567.033
    
    Mr. Lankford. Thank you very much. I thank all of you for 
preparing a statement.
    I would like to begin, I have 5 minutes allotted, I am 
going to yield those 5 minutes to my vice chairman, Mr. Kelly, 
for him to start our opening questions.
    Mr. Kelly. Thank you, Mr. Chairman. Thank you all for being 
here today.
    I come from the private sector, so I have a little bit of 
an idea about having skin in the game. And Mr. Brito, I am 
really interested, when you talked about the principal and the 
agent reporting program, because I have always thought, in my 
business, you don't want the fox watching the hen house.
    So could you expand a little bit more on where we should go 
with this? Because I am having an awful tough time following 
some, we talk the talk but we don't walk the walk in 
Government? And we tell you how you should do it, but we never 
do it ourselves? So if you could just expand a little bit on 
what the purpose would be in having an outside agency looked 
at. Because in my business, I always bring in outside auditors. 
I would never, ever do it internally. It gives you a false 
picture. It gives you a completely unrealistic idea of what is 
going on with your business.
    And I will tell you, the No. 1 thing that I find out when 
we hire a new person, they come in after their first pay and 
they say, I thought I was getting paid more. I say, well, this 
is what we paid you. Now, look through all the deductions and 
this is what you are taking home.
    So there is a huge difference between what we pay and what 
they take home. And they ask me, where did it go? And I say, 
well, take a look and you can find out, it went to the 
Government. And they say, well, what the heck are they doing 
with my money? I say, you know what, that is anybody's guess, 
isn't it?
    So if you could just tell me a little bit about what you 
would suggest as far as outside auditors.
    Mr. Brito. Sure. Economists will talk about a concept 
called principal agent problem, which is very simple. Let's say 
you have a corporation which is owned by shareholders, 
thousands of shareholders. They hire a board of directors to 
manage a corporation and the board hires a CEO and the 
management.
    Now, the board can't be behind watching the CEO all the 
time. And so for that reason, that is the very reason they hire 
managers, to manage corporations. Quarterly, yearly, the board 
meets to review the performance of management. What sort of 
data do they look at? Well, they look at profit and loss. And 
it is very clear.
    With Government, we don't have profit and loss. So we need 
to develop performance measurement. And the way that works is 
very simple, this is what Congress did in the Government 
Performance and Results Act, which is that, for a program, the 
agency, before it begins a program, needs to say, these are the 
results we expect to achieve. These are the data-driven 
measurements that we will use to determine whether we met those 
results. And then at the end of the period, whether it is a 
year or quarterly, you measure and you see whether you met 
those results.
    If you didn't meet those results, well, then, Congress can 
go look at that program, see how it can be fixed, see if it 
needs to be eliminated. Unfortunately, the responsibility of 
creating the measurements, of measuring and of reporting is all 
on the very same agency that runs the program. And so that 
creates, again, this principal agent problem.
    In the private sector, you wouldn't expect simply to take 
management's word about the performance of the company. You 
bring in a third party auditor. That is required by Congress.
    But even if it wasn't required by Congress, I would suspect 
that shareholders and board members would want to audit the 
information presented to them by management. So that is what I 
am suggesting, that we take a lesson from that, in the private 
sector, and bring it into Government.
    Mr. Kelly. And I respect your statement that we don't have 
profit. I would say we do have loss. And I have never seen any 
business that could run this way consistently, a trillion 
dollars in the red for three straight years, and feel that, 
hey, we are doing all right.
    Ms. Miller, one of the things I found interesting is in 
your written testimony it says that one of the goals of the 
mission statement, ``Sunlight is said to be the best of 
disinfectants.'' I would ask you, and also Mr. Brito, 
USAspending.gov and Recovery.gov have been criticized for not 
containing the information that citizens are most interested 
in. What information do you think is most important, what 
should be made more public?
    Ms. Miller. I will be glad to answer that. I think our 
criticism with respect to the availability of data really 
applies to Data.gov. We certainly agree with Mr. Brito's 
assessment in terms of the amount of data that is actually on 
that site.
    Sunlight advocated, with the administration, that all the 
data that is made available by Government be made available in 
machine readable formats. As you heard from our Government 
colleagues here, the administration has done that. But there is 
just very little information that is made available. It is hard 
for me to sit here, as a resident of Washington, DC, and say 
what someone in your city would be most interested in. But 
Sunlight has been exploring some of this, and we know people 
are interested, desperately, in health care issues, they are 
interested in education issues, they are interested in 
consumer-related banking issues. So we are beginning, actually, 
to develop apps from the publicly made available, the data that 
has been made available either on their own Web sites or on 
Data.gov, to move into this sort of consumer facing information 
that our best instincts tell us need to be there.
    It has not been easy to find this kind of data immediately 
accessible. We need more of what citizens need. I think the 
administration and the various agencies have been asking 
citizens, what do they need. Again, to their credit, we have to 
sort of pull back and maybe in another 6 months try to assess 
that as Government.
    Mr. Kelly. Thanks very much. My time is expired. Thank you, 
Mr. Chairman.
    Mr. Lankford. Thank you.
    I recognize Mr. Lynch for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the members of the panel for helping the 
committee with its work.
    I listened closely to your testimony. I just want to ask, 
Ms. Miller, you reported that from the USDA Web site they had 
listed the school lunch program, the cost of the school 
breakfast and lunch program here in the United States was $12.7 
billion. However, according to the USDA, their Web site lists 
the cost at about $250,000. Actually, I think it was 
USAspending.gov that actually listed it that way.
    And then we have Mr. Smith, God bless him, and it sounds 
like everything is just going great over there. I am just 
wondering if, is that how you have assessed the accuracy of the 
USDA reporting? How would you grade them, I guess?
    Ms. Miller. Well, we don't grade the agencies. Because I 
think all of them are struggling. So if we had to say which was 
better than the others, as I mentioned in my testimony, I don't 
think there is a single agency that would get an A. So there 
are failures of different kinds and substance throughout the 
agencies.
    Why those spending amounts are recorded so differently I 
honestly cannot answer. But I suggest Mr. Smith might be able 
to answer why we see such discrepancies.
    Mr. Lynch. Well, let me ask you then, you say that across 
the board, that agencies are keeping two sets of books. And 
this might be one example of that.
    Ms. Miller. It may be.
    Mr. Lynch. They keep a set of books for operational 
purposes, but then when they report to the taxpayer, to the 
public, it is in a different format, and it is difficult to 
reconcile. How do we require that the agencies reconcile that 
difference and give us usable information? Because I do agree 
with my colleagues that sunlight is the best disinfectant. And 
that is the responsibility of this Oversight Committee, to find 
out how much is being spent, where it is being spent, is it 
being spent wisely.
    We had the Director of the Office of Personnel Management 
here earlier this week. He could not tell me the number of 
contractors that we have for the U.S. Government. He thinks it 
is around 10 million. But I can't even find out how many folks 
we actually have out there working for the Government. There is 
a lot of pressure on Federal employees, but here we have these 
10 million contractors, at least, I guess, working for 
different aspects of our Government. It just doesn't seem like 
we have a handle on this at all.
    I applaud your efforts, and I don't mean to single anybody 
out. But we need a lot more work done on this.
    Ms. Miller. Yes, absolutely. And I think the first step to 
that is oversight. Well, perhaps the first step was the 
analysis which the Sunlight Foundation has done in expanding 
that analysis. Sunlight only looked at grants. We have not 
looked at any of the contract information that has been 
reported. So we have no idea of how much that would be.
    Mr. Lynch. Well, get on that, will you? [Laughter.]
    I am kidding.
    Mr. Miller. We have actually requested of the 
administration the necessary documents that we need to do that, 
and they have told us that we could not have that information. 
So we FOIA'd it 6 months ago and we are still waiting. Because 
we would very much like to move into examining the grants, the 
quality of the grants.
    Mr. Lynch. Thanks, Ms. Miller. I do want to give Mr. Smith, 
in fairness, an opportunity to respond. Because I used his 
agency as an example of the filing there, as a glaring example 
of mis-reporting. So Mr. Smith, have a whack at me.
    Mr. Smith. Thank you, Congressman Lynch.
    Let me first say, with transparency comes another set of 
eyes, always another set of eyes. I think it is exceedingly 
important that as people identify those things, if we have an 
anomaly, we identify them, we work through them. I think that 
is the value of transparency. So I think we appreciate the 
outside view and the particular question that you asked and 
that Ms. Miller brought up in her statement on child nutrition 
programs in particular.
    When looking at the legislative intent of the FFATA Act, 
and that individuals would not be reported for awards, the 
school lunch program, and also being below $25,000 for the 
first 3 years of that act, we did not report individual awards. 
We have reassessed that as we have gone along, as questions 
were raised, and at the beginning of this fiscal year, child 
nutrition programs will be reported in there.
    So again, I think it is a matter of, what is being asked, 
how we are reporting it and then how do you track that back to 
the authoritative records. And to the point on audits, we are 
strong believers in audits. Every year we go through a 
financial audit. We also do audits on our financial systems, 
SAS-70, to account for that.
    Mr. Lynch. Thank you. I yield back, Mr. Chairman.
    Mr. Lankford. Thank you very much.
    I recognize the gentleman from Texas, Mr. Farenthold, for 5 
minutes.
    Mr. Farenthold. Good morning, and thank you all for coming 
to visit with us.
    I just have a broad overview question. Do you think part of 
the data problems, and I guess I will direct that to Mr. Smith 
or Dr. Harris, because you work within the agencies, is there 
some level of accountability for the data that you report? What 
procedures do you have in place to check that the stuff you are 
publishing, both on your Web site, and sending to some of these 
collector Web sites, is accurate?
    Mr. Harris. Thank you, Congressman, for the question. At 
the Department of Education, we are actually very proud of the 
quality of the data. I say that because we have a four-way 
match. We do an extract before we submit data to 
USAspending.gov. And we match that against our financial 
system, we match it against the data stream that we send, and 
then we match it against what is actually in USAspending.gov.
    Now, it does go through a treatment when it hits 
USAspending.gov, and that is when we get the opportunity to 
actually make those changes. But I do think at the core, and 
someone spoke about it earlier, I think at the core of data 
quality is having integrated systems such that human beings do 
not touch that data between source and reporting. I think a 
large part of the reporting problem lies there.
    Mr. Smith. Thank you, Mr. Congressman. I would just echo my 
colleague, Dr. Harris' statement, we want to go to the 
authoritative data source. We don't want to reconcile it 
multiple times along the way. So put it in once, read it many 
times and do the reporting. I think the issue we face is there 
are sometimes subsets that we are looking at, when you don't 
have the whole picture, and we are trying to recreate that, is 
where we start to get differences, and when one group is 
looking at one thing and the other.
    But we put a very repeatable, rigorous process in. Any time 
there is a new requirement, we try to go back to that 
authoritative source so we are not reworking it. We check from 
the agency's sub-feeder systems into the core financial system, 
do the edit check there, then we check it at OMB before it goes 
into USAspending.gov. So there are multiple checks in place, 
and then certainly our first standard is high data quality and 
no rework.
    Mr. Farenthold. And I guess Mr. Brito may be the one to ask 
this next question, but if anybody else wants to jump in, feel 
free. When we look at these, and maybe Ms. Miller might kick in 
here, too, when we look at these aggregationsites, are we 
comparing apples to apples? Is there equivalent of generally 
accepted accounting practices for the Government? Or are we 
just getting thrown data as each individual agency sees it, and 
there is no real standard or accountability where we know we 
are looking at accurate data and able to do comparisons that 
are reasonable?
    Mr. Brito. Well, I would defer to the Sunlight Foundation. 
But it is obvious they had to FOIA information to do the 
reconciling.
    Ms. Miller. The answer is, the data is widely dissimilar. 
And so whether the GAO's initial study that they did, or the 
more complete analysis that we did, we are finding all kinds of 
inconsistencies, whether it is consistency of how the data is 
entered, whether it is completeness of the data or the 
timeliness of it, there are lots of problems.
    I have been thinking that USAspending.gov is a relatively 
new phenomenon. It was passed in 2006, I think it was available 
in 2007. So I think the agencies are having trouble adjusting 
to these aggregationsites. But we have to figure this out 
further downstream. I would certainly agree with the notion of 
the less human hands involved in this, the better and the more 
consistent reporting we will have across agencies.
    Mr. Farenthold. And Ms. Miller, let me ask you this. You 
had to Freedom of Information Act these agencies for 
information. Do you have an overall sense that the agencies are 
friendly to publishing this information? Or are you running 
into noes, and agencies saying, we don't really want this 
information out?
    Ms. Miller. Let me clarify. We did not have to do a FOIA 
for any information for the original analysis that we did that 
focused on the quality of the grants reporting to 
USAspending.gov. We have had to create a FOIA to get the FPDS 
data for, in order to do the contract analysis that we wish to 
do.
    Mr. Farenthold. Are the agencies being cooperative, or are 
you running into stonewalls?
    Ms. Miller. We actually don't receive the data from the 
agencies directly. We have not had that kind of interaction. We 
are taking the data from USAspending.gov and comparing it to 
other sources of Government information.
    Mr. Farenthold. Thank you very much. I am out of time.
    Mr. Lankford. Mr. Murphy, 5 minutes.
    Mr. Murphy. Thank you very much, Mr. Chairman.
    Just a few quick questions. Ms. Miller, I am interested in 
your experience with the Department of Defense data in 
particular. This is the one agency that still cannot get a 
clean audit at the Federal Government level. It is obviously 
the largest procurement agency at the Federal level. There is 
an enormous amount of very important data there that I think 
even as Members of Congress, we don't always know whether we 
have proper access to.
    And maybe you don't have an answer to this question, but I 
wanted to know about your experiences with the quality of data 
and the amount of data that comes out of the Department of 
Defense and how relevant that is to individuals that are trying 
to understand the decisions that are being made there, and how 
that money is being spent.
    Ms. Miller. Let me consult with my colleagues just briefly 
to see what their experience has been with respect to DOD data 
on USAspending.gov.
    My colleague, Kaitlin Lee, reports that most of what 
happens at DOD is done through contracting. They do very little 
direct grants. We have only looked at the grants. But if we 
receive this FOIA information that we have requested, we will 
be able to report on that in about 6 months. So I am sorry, we 
don't have that information.
    Mr. Murphy. I bring that up, because as we try to grapple 
with a lot of complex spending questions, I think what Members 
find is that even we don't have access to important data. 
Certainly the public doesn't, and Mr. Brito is nodding his 
head. So I am happy to give you a chance at this question as 
well.
    But as a for instance, when it comes to contracting 
decisions, what we have found is that over the last several 
years there has been a massive outflow of contracts to overseas 
companies. And we get just a shadow of data regarding those 
contracts. We know, for instance, from year to year how many 
waivers to the requirement to purchase here in America are 
granted, but we don't know anything more. We get a report on 
the number of waivers, but we don't know what type of waivers 
they were, why the waivers were granted.
    And so there is a larger conversation from a statutory 
perspective that has to happen about what kind of data the 
public receives from the Department of Defense. But I will be 
very interested to hear the results of your contracting audit 
going forward. Because I think there is a frustration in the 
public, especially with regard to DOD data. And Mr. Brito, you 
are nodding your head, so I am happy to give you a chance at 
that as well.
    Mr. Brito. The only point I would like to make, bringing it 
back to performance data, is that DOD is one of the least 
successful when it comes to performance data. One reason 
perhaps is that they have a quadrennial review process. They 
sort of feel that is the place to do it.
    When we talk about having requirements that an agency head 
certify performance data, the Secretary of Defense for, let's 
see, during the Bush administration, never signed the 
certification. Never did. So that is something that we need to 
focus on.
    Mr. Murphy. And just to switch topics, back to you, Dr. 
Harris, on this issue that was brought up earlier on student 
loans, the total amount in student loans on USAspending.gov is 
somewhere just south of $7 trillion, it is clearly not the 
right number. And I wanted to just before the panel was up, to 
give you a chance to maybe explain why that number appears on 
the Web site, and what happened there.
    Mr. Harris. Thank you, Congressman Murphy, for that 
question. In fact, I was going to jump in when Congressman 
Farenthold raised the issue of aggregation.
    In my investigation, while I certainly agree with the 
assessment by the Sunlight Foundation that there is a 
tremendous amount of work we need to do in improving the 
timeliness and especially the quality of the data, in the 
instance of the $6 trillion loan anomaly, in my investigation, 
I have found that it is more an issue of aggregation. Here is 
what my investigation led to.
    When we report the loan amount to USAspending.gov, the 
instructions tell us to report it at the face value. And in 
fact, every single time we report for that specific loan, we 
report it at the face value. Sometimes it goes up, and 
sometimes it goes down, based on activity against that loan.
    But if you aggregate that, unlike other data elements that 
you can aggregate and they give you an accurate amount, if you 
aggregate that amount over time, you are going to come up with 
a ridiculous number. But this is where context becomes the 
biggest issue we have with Open Government reporting. We have 
to do a significantly better job at informing the public on not 
what just the dataset means, what the data attribute means.
    So we believe it is the aggregation that was incorrect. 
When I look at the data on USAspending.gov, it is accurate for 
the Department of Education.
    Mr. Lankford. Thank you.
    Mr. Walberg, 5 minutes, please.
    Mr. Walberg. Thank you, Mr. Chairman. And thank you to the 
panel for being here.
    I want to followup on Mr. Farenthold's questioning of Ms. 
Miller. I listened to that question, but I want to move to Dr. 
Harris and Mr. Smith with this question. Has the Obama 
administration been helpful in assisting your Department in 
creating your Open Government plan, and your efforts to meet 
the Open Government directive? And I would ask you both, maybe 
we can start with Dr. Harris.
    Mr. Harris. Absolutely. I think the No. 1 help, if you 
will, would be in the way of a challenge. And we look at the 
Department of Education, we look at Open Government in two 
ways. Probably a slightly unconventional way. One is certainly 
providing data to the general public in a way where they can 
take the data and do what they need to do with it.
    But the other piece that we push hard on is collaboration. 
And when you initially hear the word collaboration, you are 
thinking of the public collaborating with the Government. But 
when you look at our Race to the Top program, and you look at 
our innovation program, we are actually providing data to the 
public that they can collaborate with each other. This is where 
we feel true innovation in education comes from, not just 
interacting with the Federal Government.
    So the Obama administration has helped us with that kind of 
out of the box thinking.
    Mr. Walberg. Mr. Smith.
    Mr. Smith. Thank you, Mr. Congressman. Yes, I think it was 
a very collaborative effort, as Dr. Harris has said. The 
Secretary asked me to serve on a working group that the White 
House convened, and I think every agency was asked to do that. 
And we worked through, and I think a testament to that is Ms. 
Miller and other groups, such as OMB Watch, being invited also 
to comment as we developed these plans, to make sure that we 
had a full and open conversation as each agency developed their 
plans and we shared those plans across the Federal Government 
and sought to put out the best product. Then we iterated those 
as we went forward.
    I think one of the most important things is that as we are 
looking at transparency, collaboration and participation, how 
does that drive the mission forward? What is the economic 
impact? If we are putting data out there, what is the ability 
for citizens to take that and have an economic impact for us in 
those rural areas? Or if it is food safety, how do we push the 
Nation forward by being more open, transparent and accountable?
    Mr. Walberg. Very important, with both entities, to have 
that transparency. And the administration as well.
    Let me continue the questioning with the two gentlemen. 
Under OMB's directive, each agency selected a ``high level'' 
official to oversee the Open Government initiatives. How did 
your agency select its high level official, and what 
considerations did you undergo in the selection process?
    Mr. Harris. At the Department of Education, we certainly 
did not see the issue as a technology issue. It was more of a 
business processing issue. I am currently the senior 
accountable official for data quality at the Department of 
Education. I wore, for many years at the Department of 
Education, the chief financial officer hat. But I am a 
technologist.
    But what is more important is, as the official, I bring 
together individuals, subject matter experts from the program 
offices, subject matter experts from finance, and subject 
matter experts from technology to make sure that we get it 
right. So that is kind of how we did it.
    Mr. Walberg. Mr. Smith.
    Mr. Smith. Sir, the Secretary asked me to take the lead. 
But it was very clear that I myself was not going to get this 
done. So we had a team-based approach. We built a rigorous 
governance structure around it. It was myself and the Deputy 
Under Secretary for Natural Resources and Environment. And we 
actually have a meeting standing, executive steering committee 
made up of under secretaries, deputy under secretaries, across 
all the mission areas, to ensure that we continue on this 
effort and make steady progress.
    Mr. Walberg. Thank you. I yield back my time.
    Mr. Lankford. Thank you.
    I am yielding myself 5 minutes here. And I think we are 
approaching a time for a vote, just to give you a heads-up. It 
should hit about the time we hit the break in between. But I 
have several questions I want to be able to talk through with 
Dr. Harris and Mr. Smith, especially. How do you choose the 
datasets? From what I am seeing, what is coming out, there was 
a requirement to get at least three high value data sets. How 
are those chosen? What was the process you went through? If you 
could be brief, I have a ton of questions.
    Mr. Harris. Sure. As you are well aware, Mr. Chairman, we 
have a very, very visible Secretary in Arnie Duncan. Mr. Duncan 
spends a tremendous amount of time on the road, and he is 
constantly asking the citizens what information do you want. 
Much of our information flows down from senior leadership in 
that way. And that is kind of how we decided.
    Mr. Lankford. I will come right back to that. Go ahead, Mr. 
Smith.
    Mr. Smith. I think I just alluded to it, we try to apply a 
lens to all our datasets that said how are we pushing the 
economy forward, what is the value of these datasets from 
safety and security of the food supply, and every mission area 
increasing exports. How can we put information out there that 
furthers the goals of the Nation as we move forward.
    Mr. Lankford. Would that be for Data.gov or 
USAspending.gov, or would that be the same for both of those?
    Mr. Smith. We applied this to any data, any information 
asset within our mission areas.
    Mr. Lankford. When you are choosing, as far as priority of 
where to put things, obviously your agency has a very good Web 
site, for both your agencies, and the information that is out 
there. When you are choosing information, where does it land? 
The agency Web site, Data.gov, USAspending.gov, all of the 
above? There are multiple other portals that are out there as 
well.
    Mr. Harris. Actually, all of the above. In fact, prior to 
USAspending.gov, Data.gov provided 20 toolsets and datasets out 
there for our customers and clients to use. We actually looked 
at how that data was being used and asked the question, what 
part of this data do you like, what don't you like.
    Mr. Smith. Yes, we apply it, again, to the whole portfolio. 
Let me give you a quick example, the farmer's markets. We 
expose the information on where all the farmer's markets are in 
the Nation. We have seen maps produced, so we are having an 
impact on small business and farmers to sell fresh produce 
throughout the country, and hope that increases traffic to 
those markets.
    Mr. Lankford. I spend time, obviously, going through a lot 
of the things that are out there as far as information and try 
to get a good handle on it. But one of the interesting things, 
I am sure you have done the same thing on it, when I go to 
Data.gov and I input agriculture, or I go through the search 
features, and there are multiple different vehicles for that, 
or education, on that, when I go to Data.gov and ask for just 
raw data on it for education, it comes up with nine datasets 
that come up for education. And for agriculture, it comes up 
with 20 total. And the 20 that are out there, the farmer's 
market one you just illustrated, all of them are from previous 
years. They are older data on that.
    So just trying to process through, obviously there are 
multiple places I think it is located. It is just having 
Data.gov, the goal of it was to have a place where you type it 
in, it all comes up there. And it is actually not coming up 
there when you start doing a search on it.
    Mr. Smith. I will certainly go back and take a look at 
that. The point is to have a kind of a one stop shop for 
information portals. So we will certainly look at that.
    Some of the datasets were existing, but there were others 
that had not been exposed through that manner. One is USDA 
nutritional data base, and that is one I talked about, in which 
people are now making mobile applications in order to reduce 
obesity and increase the health of our constituents.
    Mr. Lankford. Sure.
    Mr. Harris. Mr. Chairman, I think you are actually 
highlighting the very important issue of context. For example, 
when you look at the CFDA data base, and you look at 
USAspending.gov, the average citizen would expect to see the 
exact same number in both places.
    Mr. Lankford. Correct.
    Mr. Harris. But in fact, the reporting is done at different 
periods of time. Are we doing a good enough job in explaining 
to the average citizen the period of time, the context of the 
data, the answer is no, we need to do a better job.
    Mr. Lankford. I think what we have created, it is the 
energy that the Obama administration has put out, saying, let's 
get this out there. But now we have created so many different 
sites, dot gov, that are out there, no one really knows where 
to go to get it. And we don't have a single portal to say, go 
here, and it will link to everything else. We are missing that. 
So that is a big piece I think we have to be able to resolve on 
this, just getting the basics of where it goes from there.
    As far as searchable pieces, and this is another thing from 
USAspending.gov, one of the things I found often when I go 
through it, USDA had a piece of it, there is an Excel file that 
would come up, multiple different versions of it, but it would 
have the address, for instance, all in one file. So when I 
wanted to search for Oklahoma, and say, what are all the 
different grants that are out there for Oklahoma, it is not 
possible to do. Because if I just type in OK as a search, I get 
every look, crook and hook coming up as well in my search. And 
so just the basics of breaking up the fields becomes very 
important.
    What data standards do you put out there to say, this is 
how every single data base is going to be put out to make it 
consistent and searchable?
    Mr. Smith. I think you are pointing to one of the 
challenges many of us face in large Cabinet level agencies, or 
any large organization, corporate or public. There are multiple 
systems brought up over time, and many of them in non-standard 
manner. So it is a very large lift to go back and standardize 
in each and every area. So we are very focused on that, in 
particular, the areas we are focused on right now are 
transparency and the reporting areas you have talked about. We 
have been able to take the existing data, put it into a 
readable format and get it out there.
    When you throw that net even more largely, there are 
challenges out there, and we consistently strive to work on 
those. A good example of what we are doing in the Department of 
Agriculture is farmers report acreage, are reporting multiple 
different ways across multiple programs. So we have set out to 
use the national information exchange model as the standard, 
not only that the farmer uses, but agribusiness and Government, 
so that everybody can report and share information in the same 
manner.
    Mr. Lankford. Right. I would assume every different one of 
those groups, as well as every grant that is out there, has a 
unique i.d. that it is using. It is difficult to even track, is 
this the same vendor as this, they might have a similar name 
and they might have a little difference on it. Is there a way 
to be able to set it up and say, this is the unique i.d., so if 
we are searching, no matter if they have a subset underneath 
that general agency, we can still track it and say, all of 
those that have this name, they are all here and we can search 
all of them? Is that possible to be able to do?
    Mr. Smith. The CCR, and Don's effort, looked to get one 
master vendor data file in which that solves the issue of 
contractors and who we are working with. And I think we have 
made great strides on that front. But it remains an issue that 
we are working on constantly, to keep that data clean.
    Mr. Harris. Certainly this is pointed out, I believe, in 
the Sunlight Foundation's report, something that we have known 
for many years, that an entity could have multiple DUNS 
numbers. And oftentimes, if they are not linked properly, and 
you are making decisions based on aggregate data, you are not 
making good decisions. So a lot of work needs to be done in a 
unique identifier.
    Mr. Lankford. Give me your timing on that. Give me your 
thinking as far as work to be done. I know this has been going 
on for a while. How does that get resolved, and what kind of 
time period is needed to resolve that? I hate to say it this 
way, is that up the food chain from you? Someone from OMB is 
going to have to be able to handle some of those things, or is 
that something that is within the agency?
    Mr. Harris. I believe it is up the food chain, but I 
believe it is also a partnership with the public. Because they 
are the ones who have to do business with the Federal 
Government, they are the ones who actually have to get these 
identifiers. And they have to concur that one identifier for 
the entity makes sense, and that they are willing to do it.
    But to answer your question, how far away is that, I don't 
believe we have even started in really aggressively attacking 
that issue.
    Mr. Lankford. Thankfully, we have someone from OMB who is 
going to be hanging out in the next panel, and we will get a 
chance to ask that question in a moment.
    Let me just see if there are other Members. My time has 
expired, but I want to thank you very much for coming. We will 
have a panel that will be following. If you would like to stay 
around, we have votes that are going to be happening 
momentarily. You would be able to hear Mr. Werfel's comments, 
or you may leave, as well. Thank you very much for being here. 
If we have additional followup questions, we will try to 
contact you directly.
    With that, this panel is concluded.
    Mr. Werfel, if you could come to the dais here, and we 
could have a quick chat.
    [Pause.]
    Mr. Lankford. In the interest of time, I am going to go 
ahead and swear Mr. Werfel in in just a moment, and restart 
this second panel, and allow him to do his opening statement. 
We will watch time on votes and see what happens. You are 
welcome to sit in and be a part of this as well. We will get 
started in just a moment.
    [Recess.]
    Mr. Lankford. The second panel for this subcommittee will 
begin again now. We are going to recognize this panel. Mr. 
Danny Werfel, he is the Controller of the Office of Federal 
Financial Management, OFFM, within the Office of Management and 
Budget. He is responsible for coordinating OMB's efforts to 
initiate Government-wide improvements in all areas of financial 
management, which I would assume would be a very large, 
complicated task.
    So thank you for being here. Pursuant to all committee 
rules, all witnesses are sworn in before they testify. If you 
would please rise and raise your right hand.
    [Witness sworn.]
    Mr. Lankford. Thank you very much. You may be seated. Let 
the record reflect the witness answered in the affirmative.
    Mr. Werfel, I am going to allow you to do your opening 
statement as well, then we will watch carefully for the vote 
time. Hopefully we will be able to get questions and your 
statement in all at once, and we will just see how time moves 
from there. Thank you.

STATEMENT OF DANIEL I. WERFEL, CONTROLLER, OFFICE OF MANAGEMENT 
                           AND BUDGET

    Mr. Werfel. Thank you, Chairman Lankford, Ranking Member 
Connolly and members of the subcommittee, for the invitation to 
discuss our progress in creating a more open Government.
    On his first day in office, President Obama signed a 
memorandum on transparency and open Government that set forth a 
new paradigm for an open and accountable government. Since 
then, the administration has been unwavering in its commitment 
to increase transparency, participation and collaboration to 
make our Government more open, accountable, and efficient.
    A lot has happened over the last 2 years. The 
administration launched the Accountable Government initiative, 
which outlines a performance management approach that drives 
agencies' top priorities, cuts waste, reforms contracting, 
closes the information technology gap, promotes accountability 
and innovation through open government, and continues our 
efforts to attract and motivate top talent to the Federal 
Government.
    Federal agencies are becoming more open, publishing 
detailed Open Government plans and road maps in compliance with 
our Open Government directive. Final agency plans feature key 
openness initiatives, the identification of data the public 
would consider highly valuable, and new agency Open Government 
Web pages to facilitate greater transparency.
    The Federal Government's data has become the public's data. 
Data.gov is a Federal one stop data sharing platform designed 
to democratize access to data with hundreds of thousands of 
datasets in a common format housed in a central location. 
Federal spending clearly is becoming more transparent.
    We launched paymentaccuracy.gov in June 2010. This contains 
information about current and historical rates and amounts of 
improper payments, information on why improper payments occur, 
and information about what agencies are doing to reduce and 
recover improper payments.
    Recovery.gov presents unprecedented levels of transparency 
and accountability, so that citizens can monitor the progress 
of the Recovery Act, to track Federal contracts, grants and 
loans, to an unprecedented degree, and to provide feedback on 
the status and results of those investments at the community 
level.
    USAspending.gov is a one stop site that provides the public 
with an understanding of how Federal dollars are spent, 
accounting for billions of dollars spent across the executive 
branch agency. The site not only contains valuable information 
on Federal spending, but has been recently expanded to include 
data on sub-awards. The public can now see where Federal grant 
and contract dollars go down to the sub-grantee and sub-
contractor levels.
    Providing easy access to information is critical to ensure 
that the Government is held accountable for how it uses 
taxpayer dollars. While much progress has been made, going 
forward we need to continue our efforts to fulfill the 
President's State of the Union promise, to build people's faith 
in the institution of government. We need to continue to refine 
the collection of data, provide easy access to information, 
collaborate with our stakeholders and encourage participation 
in how we conduct business.
    The administration's commitment to open government is firm. 
The mechanisms that have been and continue to be implemented 
constitute a new way of doing business that will persist for 
decades to come.
    While we have accomplished many things, there is still much 
work, as I have mentioned. The public cannot realize the full 
utility of transparent Federal information if the data across 
our agencies are incompatible. Demonstrating our commitment to 
quality assurance, we have already identified potential methods 
for data standardization, particularly within Federal spending 
information. Data standardization will not only increase the 
usability of the information for the public, but will also 
achieve long-term benefits across Federal agencies.
    Current efforts to provide quality and real-time data to 
the public can consume many resources, and at times, manual 
process to ensure the data from multiple systems and sources 
reconcile. To sustain and improve upon these efforts, inter-
agency work groups have been launched, with the commitment to 
drive high quality Federal spending information and reevaluate 
and realign the underlying data standards.
    As we continue to buildupon the solid foundations of an 
open government, we must constantly gauge our progress against 
the guiding principles of transparency, participation and 
collaboration. We embrace the opportunities to work with all of 
our stakeholders to reach the shared end goal of an open 
government.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Werfel follows:]

    [GRAPHIC] [TIFF OMITTED] T7567.034
    
    [GRAPHIC] [TIFF OMITTED] T7567.035
    
    [GRAPHIC] [TIFF OMITTED] T7567.036
    
    [GRAPHIC] [TIFF OMITTED] T7567.037
    
    [GRAPHIC] [TIFF OMITTED] T7567.038
    
    [GRAPHIC] [TIFF OMITTED] T7567.039
    
    Mr. Lankford. Thank you very much.
    I am moving to recognizing Mr. Kelly, the vice chairman, to 
begin our questioning time.
    Mr. Kelly. Thanks, Mr. Chairman.
    Mr. Werfel, both President Obama and the OMB have stressed 
the importance of government that is transparent, participatory 
and collaborative. How is OMB enacting this guidance, and what 
role does OMB believe public citizens have in the process?
    Mr. Werfel. The public citizens have a central role. I 
think one of the tenets of open government is that 
accountability is necessary to push the types of results and 
improve government performance that citizens demand, and that 
we have a responsibility to reach.
    What we see day in and day out is that the more information 
is shared publicly about Federal activities, in particular, for 
example, where our Federal dollars are going, the more not only 
do citizens participate and engage in helping keep us 
accountable for those dollars, but the Government agencies 
themselves feel more accountable. As was mentioned in the 
previous panel, sunlight is a great disinfectant. We certainly 
see that happening throughout Government. I think the Recovery 
Act, in particular, is a great example of that.
    Mr. Kelly. OK, and I appreciate that. But my question is, 
if we are really looking for transparency and we are looking 
for participation and collaboration, why weren't you willing to 
go ahead and appear with the rest of the panel today?
    Mr. Werfel. For the record, Congressman, I would state that 
I am here now, answering your questions and can be----
    Mr. Kelly. That wasn't my question, and I understand what 
you are saying. But we keep talking about, we want 
transparency, we want people to have access to us. And then 
when we have an opportunity to appear on a panel with other 
folks, you decline that. Makes no sense to me.
    But I come from the private world. I don't come from this 
world. I really am trying to understand why we talk one way and 
we act an entirely different way.
    Mr. Werfel. I think the elements of the administration's 
policy in terms of witnesses and how they appear is something 
that I am happy to spend more time with you on, and get more 
information for you. Again, I will repeat, the bottom line is I 
am here and ready to answer any questions you have.
    Mr. Kelly. And I recognize the fact that you are here. But 
I really do, in the world I come from, I absolutely hate tap 
dancing. When I can't get an answer, and you do not have to be 
diplomatic with me, you can be direct, and I would hope you 
understand, I am that same type of person.
    So whenever we have an administration that says, we want to 
be open, we want to work with you, we want you to know 
everything, and then we invite them to sit here with us in the 
panel, with the public, and they don't show up, and the answer 
is, I will get back with you, I don't think that is fair to the 
American people. I think it does a disservice, and it certainly 
discredits a policy that is supposed to be open and 
transparent.
    I yield back my time, Mr. Chairman. I don't think you can 
answer that, right? Or we are going to go back on what you did 
say?
    Mr. Werfel. My direct answer to you is, you have requested 
is that I am not the correct OMB official to answer the 
question on the administration's policies with respect to 
witnesses testifying before Congress. Therefore, I have to go 
back and get the answer to your question.
    Mr. Kelly. Bad policy leads to bad process leads to a bad 
image of what the people in this country really expect of us, 
and they really do expect us to say what we mean and mean what 
we say. That is just a real basic definition of integrity. And 
I would suggest to you that in this town, we had better start 
understanding what it is the American people expect from us. 
And they do not expect to be given the runaround on things.
    So I appreciate the fact that you are here, and the fact 
that you can't answer. But I would appreciate, in writing, the 
answers to why you could not appear with the other panel.
    Thank you, and I yield back my time, Mr. Chairman.
    Mr. Lankford. Thank you, Mr. Kelly.
    I hate to tell everyone this, because it is going to cause 
a significant delay, but we have votes that have already been 
called on the floor of the House. We have also been asked by 
the people that we represent to vote for them. So we are 
expected to be there as well.
    We are going to recess temporarily. This hearing will 
resume in probably about 40 to 45 minutes. We will resume again 
with the questioning and then be able to address our questions.
    With that, we will stand in recess.
    [Recess.]
    Chairman Issa [presiding]. The hearing will come to order.
    The subcommittee chairman will be here in a moment. But one 
of the few great prerogatives of the Chair is I also have the 
ability to bring it back to order.
    Thank you for staying over the voting break. You will see 
Members straggling back shortly.
    I have a short series of questions for you. And they really 
have to do with the work that the RAT board has been doing. As 
far as we can tell, and both myself, the former chairman and 
the current ranking member, have all gone over, reviewed it, 
seen some of the discoveries. But particularly seen what we see 
is the first time in which there has been a direct outreach to 
get reporting, to get it in a format that is consistent and 
usable, and then use it against other data bases that detect 
fraud, at the current time, OMB, from what we can tell, has no 
comprehensive plan to bring a similar recipient reporting 
system across the Government. Can you comment on that?
    Mr. Werfel. Yes. First of all, I would say that we are 
completely committed to carrying forward some of the important 
accomplishments that the Recovery Board has had. One of the 
major areas where they have been successful, as you have noted, 
is the deployment of a forensic data tool and a fraud detection 
tool. It is for that reason that the President's budget 
includes a proposal to move into the Department of Treasury----
    Chairman Issa. You are talking about the $10 million?
    Mr. Werfel. The $10 million for the do not pay solution, 
which would adopt very similar approaches that the Recovery 
Board has adopted in terms of having a central place where the 
Treasury Department, in this case, would be assisting agencies 
and looking across all data sources where we can get access to, 
both public and----
    Chairman Issa. That is where I want to stop you.
    Mr. Werfel. Please.
    Chairman Issa. The President, by executive order, could 
require all the agencies, I have been told, at least, to 
cooperate in a way in which the reporting would be assumed, and 
thus that $10 million investment would be able to guarantee 
that it would have access subject to data integrity and ability 
to transmit it to do the kind of work the RAT board has done. 
As you know, the RAT board leveraged basically Katrina-Rita 
data. They leveraged existing one-time events in order to get 
more access.
    They have been unable, except anecdotally, by transfers 
that they have been able to get, they have been unable to get 
the real access that would allow cross-platform. And Treasury 
certainly would have the authority and the confidence.
    Are you prepared to, either legislatively or through 
executive action, get that kind of buy-in? Or will it be, with 
all due respect, the old mealy mouthed, we are OMB, we do 
things collegially, we get buy-in, which is crap, it never 
works. And if you say it does, I will have Mitch Daniels 
sitting in your seat, explaining that it doesn't work by Sunday 
morning.
    That is my question to you, because your teeth are not 
sharp enough to cut through the bureaucracy. Are you asking for 
something that would give either you and/or in this case 
Treasury the teeth to make this a reality?
    Mr. Werfel. I think the answer to that is yes. We have to 
balance, as we break down data silos that exist in Government 
today, and create the, enable us to do the type of analytics 
that are going to drive more powerful assessments around 
finding anomalies, fraud and error, there will be other public 
policy balances that need to come into place, including, for 
example, privacy and other implications and data security. It 
is my position that we can achieve a far greater efficiency and 
streamlining of data share and date interoperability across 
Federal agencies, while still meeting important privacy and 
security objectives.
    Chairman Issa. What data does the Federal Government have 
which you are prohibited from accessing for purposes of 
analysis?
    Mr. Werfel. For purposes of, well, there are, for example, 
one of the more protected data bases is the IRS data base, as 
an example. And to the extent there is personally identifiable 
information or tax information, Section 6103 of the Code would 
prevent that type of movement of data.
    Another great example is the National Directory of New 
Hires.
    Chairman Issa. Right, but let's go through, because the IRS 
is the best known by the American people. The IRS routinely 
takes information in, digests it and responds to State laws, 
Federal and State laws. If you have a deadbeat dad in Minnesota 
who leaves and goes to Florida, or any other State, the 
Minnesota input data leads to an output data that confirms the 
availability of the dollars, allows for the grabbing of the tax 
return and thus the movement of it, either to public entities 
that have taken care of the mother and child, or directly to 
the individual, or for that matter, even to a State coffer on a 
State tax.
    So if you have that authority within the Code, can't you, 
without looking at it, create a leverage where you send the 
data in a format the IRS can absorb, with your request, and you 
get back only the limited response? Isn't it true that you 
can't even pierce the IRS, as long as you don't extract the 
data?
    Mr. Werfel. Yes. There are, I am personally aware of 
situations in which IRS data transfers can occur in a different 
format, in order to protect certain 6103 restrictions. So you 
are right about that.
    Chairman Issa. OK, my time is expired. When you said yes, 
you are prepared to do it----
    Mr. Lankford [presiding]. I can yield to the gentleman an 
additional 2 minutes.
    Chairman Issa. I thank the gentleman, but I will hopefully 
not use it all. You didn't say that you would ask the President 
by executive order. You apparently historically do not have the 
legislative authority. Are you going to come to us for 
legislative authority, and if so, when?
    Mr. Werfel. I think, let me step back and say that there 
are different avenues we can dig to break down these data 
silos. In some case administrative, and in some case, we would 
need legislation. I believe we are in a, as we move forward on 
our efforts to detect fraud and understand more what we need to 
do to knock down these data silos, I think we will be back and 
asking you for help, legislative help to create these types of 
data transfers.
    I don't have a date certain by which I know we will come 
back. But it is our commitment to work with this committee in 
particular on these issues.
    Chairman Issa. OK. My closing question, which I would 
appreciate just answered for the record, or briefly respond and 
then expand, forensics clearly are not going to be enough 
alone. If I were Visa, MasterCard or any of the other, if you 
will, world class organizations, real-time, online assessment 
is how you prevent the loss, not how you simply see if the 
courts are too backed up to go after the person once you find 
them. Ten million is obviously not for that.
    Do you have a plan to make any portion of the Government as 
proactive as Visa, MasterCard?
    Mr. Werfel. I don't know that I could articulate for you an 
overarching plan. I will say that I agree with the principle 
that prevention comes first versus paying and chasing errors 
after they occur. Absolutely. There are situations that are 
emerging today where agencies are taking more aggressive steps 
to pause, to review, to place moratoriums on certain payments 
before they go out the door. That is part of the prevention.
    But a global, cross-Government plan that initiates the type 
of neural networks that you are talking about, we don't have 
that in place yet. I think if we get to a point where we start 
to knock down some of these data silos, that will open the 
door. We need to bring some smart people around the table to 
figure out how to enable such, leveraging such a new data 
environment.
    Chairman Issa. Thank you.
    Thank you, Chairman. I yield back.
    Mr. Lankford. Thank you. I would like to recognize the 
ranking member, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much.
    Mr. Werfel, let me ask you this. In the other panel, Ellen 
Miller talked about some agencies that were not reporting. Were 
you here?
    Mr. Werfel. I was.
    Mr. Cummings. Can you talk about that for a moment? And I 
was just wondering what we are doing to try to make sure that 
they do report.
    Mr. Werfel. Thank you for the opportunity to respond to 
those issues.
    First of all, I think it is a very important thing that the 
Sunlight Foundation is doing by raising these issues to our 
attention. It is part of transparency at work. We don't just 
self-identify errors, we rely on the public to be reviewing our 
reports and finding those issues as well.
    I think in some cases, we are going to find that the public 
is going to report, like a group like Sunlight Foundation, an 
error, and it is going to have a real, immediate impact and be 
a legitimate issue for us to address. And sometimes, the error 
has an easy explanation and it is not really an error at all. I 
think there was an example that was provided around the school 
lunch program, where USAspending.gov doesn't require us to 
report payments under $25,000, which is the bulk of the school 
lunch payments. That is why there is an absence of information.
    All that said, there are criticisms that were discussed in 
the first panel that are valid. And we are not where we need to 
be in terms of the full completeness of the data. We have 
issued a policy at OMB that we think is having an impact on 
this, that requires Federal agencies to initiate more robust 
quality assurance programs around the completeness, accuracy 
and timeliness of their data, starting with the senior 
accountable official and moving forward to the types of 
frameworks we see in our traditional financial statement 
reporting process: risk management, internal control review, 
reconciliation of information in our accounting systems to what 
is being reported on USAspending.gov.
    All of that is underway. But Congressman, it is an evolving 
process. As we move forward, there will continue to be points 
in time which we expect there will be some errors. And we will 
get better and better at this as we go.
    Mr. Cummings. I often say that there are certain things 
that are a project and not a product. Certain things are ever-
evolving.
    The question is, are we doing, are we moving fast enough? 
We just heard from the Commissioner of the SEC yesterday, and 
in one of her reports she talked about how folks on Wall Street 
were moving so fast and coming up with all kinds of new 
products. In some instances, so fast it was hard for SEC to 
keep up with them.
    I am just wondering, do we have, first of all, the 
technology that we need? Is it, from what you can see, problems 
stemming from folks who are just not doing what they are 
supposed to do? Is there a bigger hammer that needs to be 
hammered? I am just wondering.
    Mr. Werfel. I think it is a mixture. I would say that there 
are moments that I see, in my work, where it is almost 
astonishing, the progress that is being made. So for example, I 
look at Recovery.gov today as an example. The information that 
is there, the level of detail, the functionality of that Web 
site. And I think that is really a cutting edge tool that is 
probably far ahead of where I thought we might be 5 years ago, 
if I was testifying before you then.
    And so that is exciting. And that, I think, rallies the 
rest of the community around what is possible. And really opens 
the door to even greater efforts.
    At the same time, there are agencies that I could probably 
say I would have thought would have been further along if I was 
testifying here 5 years ago.
    To answer your question, I think a bigger hammer is needed. 
I think what you have today is a dichotomy that was reported on 
the first panel that is accurate. We have what I would argue is 
a very robust financial statement audit process that exists 
today. Started in 1990, it has been 20 years. We have 20 of the 
24 major agencies in Government receiving a clean audit 
opinion. A lot of effort goes into scrutinizing, to the 10th 
decimal point, the numbers that go on our balance sheets and 
our other basic financial statements. And we have developed a 
very robust process in response that is moving forward and 
achieving important things in terms of financial reporting 
reliability.
    That robustness does not exist with respect to the 
information as reported on USAspending.gov. The spend 
information, as we call it, is not completely wired into the 
financial statement audit process. We think that we need to 
look at that audit process and that reporting model to 
potentially realign some of that audit scrutiny around spending 
information. I think you would see a difference in results if 
agencies felt the accountability of an auditor's eye on these 
issues.
    Mr. Cummings. I ask for unanimous consent that I have an 
additional 3 minutes, as the chairman had.
    Mr. Lankford. Absolutely.
    Mr. Cummings. Thank you very much.
    In your testimony, you also talk about the breadth and 
depth of reporting required by the Recovery Act, 200,000 prime 
and sub-recipients file public quarterly reports, with up to 99 
distinct data fields. As you point out, this is more frequent 
than other major financial reporting required by the Federal 
Government. And yet, Recovery.gov seems to be the best example 
of Federal spending transparency. Indeed, 99.6 percent of prime 
recipients filed on time last quarter.
    So I have to ask you this. Where did Recovery.gov succeed 
and USAspending.gov struggle, and why?
    Mr. Werfel. That is a very good question. I think for one, 
the Recovery Act represented a point in time where there was 
tremendous accountability, both vertically and horizontally, 
across Government and recipients, about getting the information 
reported in and getting it correct. There was leadership 
engagement, congressional oversight, GAO has probably issued 20 
reports auditing and looking at our activities to meet these 
requirements. There was a real sense, and I am glad of it, a 
real healthy stress that was placed on the entire Federal 
environment, and the recipients of the Recovery Act, that this 
needed to be done transparently. And it became one of the most 
major priorities that I have ever been involved in in order to 
make this work, make it successful.
    And we had a very talented individual in Earl DeVaney at 
the board, at the Recovery Board, helping us along the way. And 
the stars aligned for great success. The USAspending.gov 
environment, it hasn't been as similar. The law was passed in 
2006. We did not see the same type of emphasis, whether it be 
GAO, congressional or administration leadership, around getting 
those data requirements up and running.
    When this administration came in, it was confronted almost 
immediately with the economic situation and the Recovery Act. 
We immediately looked at this as a major opportunity to deploy 
Recovery Act reporting and Recovery.gov successfully, and have 
it set the milestone that USAspending.gov would need to follow.
    We already see evidence that is following through. Because 
up until the Recovery act, we never had any sub-award reporting 
in USAspending.gov and now we do. So we are already starting to 
see that this arc of, can Recovery Act reporting set a new tone 
and a new watermark that would move USAspending.gov in the 
right direction, it is already starting to materialize. But we 
still have to work at it.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Lankford. Thank you.
    I would like to recognize the ranking member of this 
subcommittee, Mr. Connolly, for his questions in 5 minutes.
    Mr. Connolly. I thank the chairman, and welcome Mr. Werfel. 
Welcome back to the Oversight and Government Reform Committee, 
your second home lately.
    Mr. Werfel. Yes.
    Mr. Connolly. We are glad to have you.
    You, I don't think, had joined us yet, but the chairman, 
Mr. Lankford and I, in our respective opening statements, both 
praised the administration for the transparency initiative, 
especially with respect to Recovery.gov. So I think there was 
public acknowledgment, on a bipartisan basis, that we have made 
a lot of progress. Now, nothing is perfect.
    You in your testimony talked about the OMB and the CFO 
counsel developing a new statement of spending to focus on how 
and where Federal dollars are being spent. Would that supplant 
the current CFS? And how would that work?
    Mr. Werfel. It wouldn't supplant it. It gets back to part 
of the response to Congressman Cummings' question, how do you, 
we have confronted ourselves the following question. How do we 
drive more accountability for Federal agencies' reporting of 
spending information into USAspending.gov. We feel like we have 
developed a pretty strong muscle in the area of basic financial 
statement reporting. The agencies have been doing it for years. 
They have set up IT systems and processes to do it.
    So the question is, how do we walk in that game and talk in 
that dialog. That is where the concept of the statement of 
spending came. Because agencies have the ability and the 
experience, and auditors have the ability and experience, to 
audit basic financial statements. We felt that if we can create 
a financial statement similar to our other statements that has 
the foundational information that goes into USAspending.gov 
that you, in order to get a clean audit opinion on that 
statement of spend, it would automatically mean that the 
underlying source information is accurate and then the 
information that flowed into USAspending.gov by definition 
therefore would be more reliable.
    So what we are saying with the statement of spend is, 
reliability of USAspending.gov information into what we believe 
has been a successful, yet still emerging initiative to improve 
basic financial reporting on things like balance sheets.
    Mr. Connolly. Are there best practices from USAspending.gov 
that can be applied to other Federal agencies, and if so, how 
does OMB disseminate that, or inculcate that?
    Mr. Werfel. Absolutely. One of the things that we did when 
we started this process of moving forward on a more robust 
quality assurance program from USAspending.gov is we asked each 
agency to submit a data quality plan. And you can look across 
those plans and see some agencies really ahead of the game in 
terms of the types of reconciliations that they are doing, 
looking at control totals, doing automated reports right out of 
their systems. I think Danny Harris, Dr. Harris did a very good 
job during his testimony of explaining how much they have 
leveraged their transaction infrastructure in a way to make 
this make more sense.
    But other agencies, not as much. Other agencies are still 
doing more manual, what we sometimes call cuff reports, putting 
together the reports separately and therefore, it is not as 
efficient and it is not as reliable. So one of the basic 
missions of my office, the CFO Counsel, is to share this 
information across agencies. We have working groups that are 
doing that to say, here is what Dr. Harris and the Department 
of Education are doing. They have it wired into a process that 
is working for them and minimizing errors. And your agency is 
not doing as well of a job. So how can we close that gap? So 
that is part of the mission here.
    Mr. Connolly. Let me ask you, because I am going to run out 
of time, one more question. In the category of transparency, at 
least speaking to this Member, I don't think we pay enough 
attention up here to tax expenditures. That is a real, live 
spending item by any other name. We just don't like to talk 
about it, but it is a trillion dollars a year.
    What is OMB doing to try to make sure that we are shedding 
more light on tax expenditures and their relationship to the 
Federal deficit and their relationship to other aspects of 
Federal spending?
    Mr. Werfel. This is an issue that I think, it is going to 
be one of those times in the hearing when I ask to come back to 
you with more information. I would like to consult with my 
colleagues at IRS. It is not currently one of the required 
elements, for example, within Recovery Act reporting and 
USAspending.gov. So sometimes we are so busy dealing with the 
statutory requirements that are before us and meeting all those 
deadlines that some of the other elements of transparency don't 
get on our radar screen as much.
    For me, that is true. My days and nights are spent meeting 
the requirements of the various laws before me. So let me, if I 
could, consult with IRS and then come back and brief your 
subcommittee on this issue.
    Mr. Lankford. I yield to the gentleman an additional 3 
minutes of time.
    Mr. Connolly. I thank the chairman. And I really welcome 
that, and Mr. Chairman, I would hope that our subcommittee 
would welcome that. Because I think if we are going to have 
transparency and we are going to have data available to the 
public, tax expenditures, if you look at how they are accounted 
and how we address them in budget documents and so forth, it is 
woefully inadequate. And it is a very substantial amount of 
opportunity cost from a revenue point of view. It may be all 
good policy, but it deserves the light of day.
    So I would welcome your coming back to us in much more 
detail.
    And let me ask, and I would hope that the chairman would 
join me in this, that we would ask also for your 
recommendations about how better to capture both the value and 
the cost of such expenditures moving forward. And Mr. Chairman, 
I would ask whether you might be able to join me in that 
request.
    Mr. Lankford. Yes, that is a difficult one to track, just 
because the IRS Code is nine times longer than the Bible. You 
think we have a few exceptions in there? [Laughter.]
    Mr. Connolly. Exactly.
    Mr. Lankford. Gathering all of that and what the values 
include I am sure would be quite a task. I don't know whether 
it would be GAO or who that might be to be able to land on and 
help us determine those types of things.
    Mr. Connolly. Thank you so much.
    Mr. Lankford. You are welcome.
    Mr. Connolly. My final point, question, would be, I assume 
that both the CTO and the CIO, Mr. Chopra and Mr. Kundra, are 
involved in the deployment of technology with your CFO counsel 
in trying to aid and disseminate best practices, eliminate 
duplication and improve transparency?
    Mr. Werfel. Absolutely. It is a partnership. Vivek Kundra, 
the Government CIO, could have been sitting here today just as 
I am, with the emphasis of this hearing on reliability of 
reporting, potentially on issues of audit. It just made more 
sense for me to be here. But we are attached at the hip on 
these issues.
    We have to solve this with a multidisciplinary approach. If 
it is just the auditor, just the accountant, not going to get 
it done. The technologist is critical to this effort as well.
    Mr. Connolly. I think that is a really important point, Mr. 
Chairman. With that, I yield back my time and I thank the Chair 
for his generosity and consideration.
    Mr. Lankford. Thank you.
    Mr. Werfel, let me just run through a litany of questions 
here, and just short answers, and try to run through a couple 
of things on it as we finish this out. Thank you for waiting 
through the lunch hour to be able to be here as well, as we 
were finishing up the voting.
    You had mentioned earlier that there was a need for some 
legislation to correct some of the data needs that are out 
there. I would like for your office to be able to provide to 
our committee that list that you would say, here are the 
legislative fixes that we need to be able to help resolve those 
things. If you could get that back to us, we will make sure 
that we share that in a bipartisan way. And that would be very 
helpful to us.
    There are a maze of sites that are out there. Recovery.gov 
was very well done. It got the information out quickly. It was 
so successful that now we have multiplied the dot gov and now 
we have Recovery.gov and paymentaccuracy.gov and 
Itdashboard.gov and all the agencies have it, Research.gov, 
Data.gov, and it goes on and on. I am missing many that I know.
    How does an individual go find their information now? We 
have moved from, it is out there, go search for it, when 
originally the design was, let's lock in a Data.gov, 
USAspending.gov and say, if you are looking for something, go 
there. Is that still the mission? If so, how is it going?
    Mr. Werfel. You are raising an enormously challenging 
element of open government and transparency. And there are many 
challenging elements to it. One of them is getting the data out 
there. And we are trying, and I think making important 
progress, in getting more real information and other types of 
reports public, in particular through the Web.
    Another challenge, and there are numerous, but the other 
challenge is, sometimes the quantity of the data that is out 
there can be overwhelming, and how are we assisting the 
citizenry in accessing that information. And right now, I think 
you have hit on something that is part of a strategy. It might 
not be the most effective strategy, and it is evolving. But it 
is the branding of our Web sites in ways that make sense. If 
you want to learn about grants, go to Grants.gov. If you want 
to learn about where Federal dollars are going, 
USAspending.gov. If you are curious about the Recovery Act, 
Recovery.gov. And you see the theme of trying to make it 
logical.
    And we do a lot of work with citizens and user group around 
these efforts to say, what works for you. We don't do these Web 
sites in a vacuum.
    Mr. Lankford. Correct. But what is the central portal going 
to be? If I don't know which one to go to, where do I go to 
say, this is where I start?
    Mr. Werfel. I don't think that we have established a 
consistent central portal. I know that in the previous 
administration there was First.gov, there is USA.gov is 
available. But I don't think that we have championed the 
starting point portal for the rest of Government.
    Mr. Lankford. Let me ask you, and obviously I am not going 
to order you one way or the other on this, but let me ask you 
to examine that. Because people outside of the Beltway do not 
know where to go. They do not know if they are looking for food 
stamp information to go to the Agriculture Department. They are 
not aware that there are education programs in the Department 
of Defense. They don't know how to be able to search for those 
things.
    So they need a central portal to go be able to ask the 
questions, if they are going to get the data, then it can take 
them to the spot it is going to go. It doesn't have to be all 
in one place, it can be these various sites. It does make 
sense. There are going to be some watchdog groups that are 
always going to land on Research.gov, that is what they 
research. That is what they want to go after. Or the 
Grants.gov.
    But there has to be a place for people to be able to go to 
if the information is out there that they know. Otherwise, many 
of the things that we talked about earlier, Dr. Harris and 
others, it is on their agency Web site. It is not on Data.gov, 
it is not on USAspending.gov, it is over on their agency. So I 
can't go find it.
    Mr. Werfel. So, yes, let me just recommit to the point that 
we are working toward that objective. We have, as you 
mentioned, some success with the branding in terms of certain 
stakeholders who automatically know where to go, and we develop 
important partnerships with them. And that efforts are underway 
to reconcile the various dot govs. What I would like to do, as 
you say, come back, we will show you some of our thoughts on a 
strategic vision for that. Then let's partner together toward 
the right strategic vision.
    Mr. Lankford. Let me bounce a couple of other things past 
you. There is a great need, we heard from Agriculture and 
Education, that some data standards, if things are going to go 
up, here is how they need to go up. And I gave the example 
earlier of an address field that includes the entire address, 
including State, city, zip code in one field. That is obviously 
not searchable. A single entity, that is, a contractor, needs 
to have an i.d. number that someone can search for that 
contractor and they can chase them down. There is a need for 
OMB to be able to provide that to the agencies, here are more 
data standards. Even begging the question, what is a 
significant piece of data out there.
    And the for-instance on that. If someone is going and 
looking for how many employees does an agency have, what is 
their budget, what are the programs that they are doing, and 
what is the mission of those programs, there is no place they 
can go to get that. They are stuck searching through an agency 
Web site that may or may not have that. That seems to be fairly 
usable data that I think most American taxpayers would want to 
be able to look at a site, like a Data.gov, like something, 
whatever it may be, and to say, how many people work there, 
what is the mission of the departments that are there, what are 
even the names of the departments that are there, and what is 
the budget for that.
    To find an established piece on that, if that is something 
OMB can begin on, that is something I think we should begin on 
as well, to say there is a basic transparency piece that needs 
to get out there. Does that seem reasonable to you?
    Mr. Werfel. It absolutely does. I think if you looked at 
the landscape of data across Government, you are obviously 
going to find significant heterogeneity and opportunities for 
standardization. You will see some pockets of standardization 
that are promising and that we can buildupon. But what you will 
also find is a lot of work to be done. We need to move out on a 
strategic set of priorities. We have started.
    Mr. Lankford. And I will tell you, Ranking Member Connolly 
and I have both affirmed that. This is the first administration 
to do this level of it. This is the beginning point, we 
understand.
    The criticism is not that we are starting it. Way to go on 
starting it and getting it out there. I want to find out, what 
are the lessons learned, what are we missing, what are people 
asking for. Let me give you a for instance on it. It would be a 
help to this committee that when the emails come back as 
feedback, and there are several of your sites that say, for 
feedback or contact us for more questions, what data are you 
looking for, basically, if our committee were to get those 
things in real time at the same time.
    Not that we are going to respond to those things, but hat 
would allow us in our oversight role to be able to say, you 
know what, these are the data pieces people are asking for. And 
if our committee could get that unfiltered, and it could be 
shared bipartisan, then people could get a chance to say, you 
know what, a lot of people seem to be asking for this. Why is 
it that we don't provide that? That would allow us to do our 
oversight a lot stronger.
    And let me make another comment to you. You mentioned 
Recovery.gov. That is a very successful site, you are right, it 
was very well done, and the information was unprecedented that 
was put out. My feeling on it is, one of the successes of it 
was the recipients were uploading information. It wasn't just a 
Government entity that was putting it down there, they have 
lots of other things. But the recipients were saying, yes, we 
received this, this is what we received and this is the 
feedback for it.
    That is of great benefit. Is that something that is going 
to continue, and can that be replicated in USAspending.gov and 
other places?
    Mr. Werfel. Yes, and there are many, many, a lot of the 
information that the Federal Government reports today, the 
source is the recipient of the Federal dollars reporting what 
is going on with the dollars from a financial perspective, a 
performance perspective.
    What was, I think, unique about the Recovery Act was the 
automated nature of it, the speed of it, all of that.
    Mr. Lankford. Correct. That is a platform that now exists, 
though. What I am asking is, is that a platform that will 
continue to be used? Will it be replicated in other areas to 
say the recipient can quickly say, yes, we have received this 
grant, and also be able to come back and say, this is what was 
done with it? Because one of the primary questions that I get a 
lot about grants and contracts and other things, was it 
actually accomplished? Did we do it? What happened with that?
    I think there would be people that could look around their 
own neighborhood and could find, this is what happened in my 
area, I had no idea that the Federal Government was involved in 
this area in positive ways. But they don't know, unless there 
is some reporting back on accountability on that.
    So that Recovery.gov platform of recipient reporting, is 
that something that is going to be multiplied out and used?
    Mr. Werfel. It is, and it is ongoing today. We have more 
and more modernized and more seamless ways of collecting 
information from non-Federal stakeholders. And that is going on 
today.
    Mr. Lankford. In the USAspending.gov and other places, as 
has been referenced by several people, when there are gaps in 
it, and information is not showing up, or it is showing up as a 
contract is here, or the grant is here, but just zero amount, 
how are they held to account in the agencies to get that 
information correctly? Whether it be a data field that is not 
done, or the dollar amounts are completely left out, is there a 
chain of command? Is there someone verifying that and saying, 
hey, we have to get this correct?
    It seems that 30 some odd percent accuracy rate is not 
quite high enough for us.
    Mr. Werfel. A couple of responses there. First, as 
mentioned earlier in my testimony and mentioned on the first 
panel, right now the process is a self-assessment. We have 
asked the agencies to create a senior accountable official, and 
then an internal process to validate completeness and accuracy. 
And there are some limitations in the self-assessment. An 
independent eye, whether it is the Inspector General or an 
auditor, coming in to review that, is going to drive 
improvements and more objectivity and the results will improve.
    Second, I want to just, on the record, take a different 
perspective on the 30 percent success rate that was in the 
testimony of one of the other witnesses from the Sunlight 
Foundation. We have concerns with the methodology surrounding 
that. And I don't need to go into great detail. But we do not 
believe the success rate is as low as the Sunlight Foundation 
said.
    Mr. Lankford. It is just the key data coming out. I did a 
quick search on just for Oklahoma, my home State, and to be 
able to look at it and see some of the things that are in 
USAspending.gov, and tracking through the different things that 
are there. There is just a for instance. Last year there was a 
helicopter services contract that was put out, but there is no 
amount that is listed on that one. So we don't know what that 
one is.
    But there is apparently a peanut butter contract for a 
little over $2 million. That seems like a large amount of 
peanut butter. We go through a lot of it at my house. But on 
this particular report, I could go on and on, there are 
multiple areas that are zeroed out, page after page, there are 
about 17 pages listed, a lot of zeroes that are listed here. 
And I don't know if we bought $2 million worth of peanut butter 
in Oklahoma or not, from a Government contract.
    But there just seem to be some issues that I can look at, 
and I can say, OK, somebody needs to be verifying this data and 
making sure it is complete, and there needs to be a process. It 
is a very good thing to get the data out there. But to get it 
out wrong or incomplete raises all sorts of questions.
    Mr. Werfel. Absolutely. And as I think was evidenced during 
the first panel, some of the criticisms or concerns about the 
data have rational explanations and some of them, it is just a 
basic data quality issue that we need to address. I think the 
more people that are searching this data and using this data 
the more we move in the direction of better quality. The fact 
that you can go online and find $2 million of Federal dollars 
were spent on something related to peanut butter is something 
that could not have been done before.
    Mr. Lankford. That is correct.
    Mr. Werfel. And for that, we want to celebrate that, 
leverage it, make sure that we do have a more accountable 
government. But as you point out, there are gaps in the 
reporting and we are working on closing them.
    Mr. Lankford. That is the best gift that we can give, is 
transparency. Watchdog groups, outside citizen groups, the 
contractors themselves being able to look at the site and say, 
was it reported correctly, is that accurate, is a tremendous 
asset to them. We want to continue to multiply that and make 
sure that does occur.
    So with that, Mr. Connolly, did you have additional 
questions?
    Mr. Connolly. If the chairman would yield, I was just going 
to add to your point that it may be a good thing to celebrate 
the fact that we can now solve the peanut butter mystery. But 
on the other hand, we may want more information. And I would, 
because it is not intuitively obvious to the searcher why we 
would be spending $2 million tax dollars on peanut butter.
    So while we are celebrating the fact that one can access 
that piece of data, I would hope that, to the chairman's point, 
that we try to make these search engines even more useful by 
way of, here is why we are buying $2 million worth of peanut 
butter.
    Mr. Werfel. Right. And as an example, if I could respond to 
that, a legitimate explanation might be, it might be part of 
the school lunch program, and therefore, there is an easy 
explanation.
    Mr. Lankford. I completely agree. And I would say that the 
ranking member mentioned in his opening statement that there is 
not a need to be able to track every paper clip. That is not 
what I think the American people are looking for on it. But I 
think it is these broad categories, to know that it is 
consistent, we know what that is, the information is getting 
out there, it is trackable, it is traceable.
    For instance, if a report is done, people want to know, if 
there is a report done on wildfires in a certain bird nest, it 
asks the obvious question, how much did that cost to do that 
report? Well, we know, there was a grant that was given to be 
able to do that. We should be attaching that report to the cost 
of producing that report so everyone could know and evaluate, 
is that good use of taxpayer dollars, and instruct the 
conversation. That is a good thing for us as legislators, to be 
able to look at and be able to see, and for people in our 
districts to hold us to account on that. That is a good thing 
for us to hold you to account, to say we need that information 
to get out there for reports done, how much does it cost, can 
they find it and be able to track it is a reasonable thing.
    If there are no additional questions, Mr. Werfel, thank you 
very much for being here. We have a great deal to do. We look 
forward to your followup reports on it, and this hearing is 
adjourned.
    [Whereupon, at 1:15 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
